<html>
<title> - COUNTER-INSURGENCY VS. COUNTER-NARCOTICS</title>
<body><pre>[Senate Hearing 106-511]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-511



                      COLOMBIA: COUNTER-INSURGENCY
                         VS. COUNTER-NARCOTICS

=======================================================================

                                HEARING

                               before the

                     SENATE CAUCUS ON INTERNATIONAL
                           NARCOTICS CONTROL

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 21, 1999

                               __________

                   U.S. GOVERNMENT PRINTING OFFICE
64-317                     WASHINGTON : 2001



            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL
                       ONE HUNDRED SIXTH CONGRESS

                  CHARLES E. GRASSLEY, Iowa, Chairman
                  JOSEPH R. BIDEN, Delaware, Co-Chair
JEFF SESSIONS, Alabama               BOB GRAHAM, Florida
MIKE DEWINE, Ohio                    DIANNE FEINSTEIN, California
SPENCER ABRAHAM, Michigan
                      Wm. J. Olson, Staff Director
                 Marcia S. Lee, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENT

                                                                   Page
Sen. Charles E. Grassley.........................................     1
Sen. Mike DeWine.................................................     3
Sen. Jeff Sessions...............................................     6

                                PANEL I

Rand Beers, Assistant Secretary, Bureau for International 
  Narcotics and Law Enforcement, Department of State.............     7
    Prepared Statement...........................................    11
Brian E. Sheridan, Assistant Secretary, Special Operations and 
  Low-Intensity Conflict, Department of Defense..................    18
    Prepared Statement...........................................    20
General Charles E. Wilhelm, Commander in Chief, U.S. Southern 
  Command, Department of Defense.................................    30
    Prepared Statement...........................................    31

                                PANEL II

Bernard Aronson, Chairman, ACON Investments......................    74
    Prepared Statement...........................................    79
Michael Shifter, Senior Fellow, Inter-American Dialogue..........    85
    Prepared Statement...........................................    88

                          SUBMITTED QUESTIONS

Rand Beers, Assistant Secretary, Bureau for International 
  Narcotics and Law Enforcement, Department of State.............   105
General Charles E. Wilhelm, Commander in Chief, U.S. Southern 
  Command, Department of Defense.................................   161
Brian E. Sheridan, Assistant Secretary, Special Operations and 
  Low-Intensity Conflict, Department of Defense..................   176
Bernard Aronson, Chairman, ACON Investments......................   185
Michael Shifter, Senior Fellow, Inter-American Dialogue..........   187

 
                COUNTER-INSURGENCY VS. COUNTER-NARCOTICS

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 1999

                                       U.S. Senate,
                 Caucus on International Narcotics Control,
                                                    Washington, DC.
    The caucus met, pursuant to notice, at 9:03 a.m., in room 
SH-216, Hart Senate Office Building, Hon. Charles E. Grassley, 
chairman of the caucus, presiding.
    Present: Senators Grassley, Sessions, DeWine, and Graham.
    Chairman Grassley. I thank everybody for coming out at a 
fairly early morning, the first morning after a long weekend 
break of Congress. And it is not exactly an ideal time to have 
an important hearing like we are having, but the schedule of 
the Congress dictates, both for policy reasons as well as for 
the time we are in the legislative session, to move forward 
with this very important issue.
    We also will have the privilege of having other Members, 
one of whom is present, Senator DeWine, but others will be 
coming who have urged me to have this hearing. And I appreciate 
very much the breadth of interest we have in the situation in 
Colombia from all members of the caucus, particularly as it 
relates to the efforts we have in this country to combat drugs.
    Today's hearing concerns one of the most important foreign 
policy issues that we currently face. It is one that directly 
affects U.S. interests and the lives of U.S. citizens daily. It 
is not remote, it is not abstract, it is not obscure. Yet, we 
seem to find ourselves in the midst of a muddle. U.S. policy 
appears to be adrift and our focus is blurred.
    We are today going to focus on the current situation in 
Colombia and the nature of our efforts to stop drug production 
and transiting. I must confess some disappointment about that 
current situation and the nature of our efforts. On this, one 
of the most critical items on our national agenda, what to do 
about the drug threat, there does not appear to be a coherent 
strategy or a consistent policy. And if there is, then there 
has been a distinct failure to explain these to Congress or the 
public, and this is particularly true when it comes to the 
country of Colombia that we are looking at in this hearing 
today.
    There has been a lot of talk about Colombia recently, but 
there does not seem to me to be much of a strategy. There might 
be some actions taken, but actions do not state policy. I am 
frankly disappointed in the administration's failure to engage 
in a serious discussion with Congress or the public to explain 
its policy. What we see is piecemeal engagement in a situation 
that is not adequately understood. We seem to be bent on asking 
what color to paint the helicopters before we ask what it is 
that we are doing or whether we should be doing it at all, or 
if we should, what is needed and what responsibilities the 
government of Colombia has.
    There are a host of basic questions elemental to a sound 
strategy that are going begging. I do not question, though, the 
sense of purpose or the dedication of the many men and women, 
Americans and Colombians, who daily put their lives at risk to 
stop illegal drugs. But their actions need to add up to more 
than the sum of the parts if we are going to make a difference. 
Actions need a center and a focus; they need direction and 
coherence. And above all, these actions need to be linked in a 
sensible way to our resources. All of these things need to be 
linked to outcomes that purchase a difference. Finally, they 
need to be explained clearly and straightforwardly to ensure 
public support. I am concerned that we lack these vital 
connective tissues.
    Reporting from Bogota strongly suggests that our whole 
policy is in disarray at a time when Colombia is in the midst 
of a major crisis. There has been drug smuggling from the U.S. 
embassy. Despite years of focus on eradication, drug 
cultivation continues to increase. If preliminary analysis is 
to be believed, it has almost doubled. Further, our estimates 
of cocaine production are also seriously flawed, perhaps 
underestimating the production by 100 percent. Colombia today 
is producing more cocaine than at any time since we began our 
efforts there.
    The insurgents, while not in a position to seize power, are 
growing in strength and profiting from drug smuggling. In some 
cases, they are better armed and better trained than the 
military. The military, conversely, suffers from a variety of 
systemic and institutional problems, and these are problems of 
long standing. It lacks equipment, training, resources, and 
appropriate manpower. Paramilitary groups with possible links 
to the military are waging their own war against the state. The 
peace process appears to be stalled. Violence is escalating. 
The judiciary system appears unable to cope, and Colombia is in 
the midst of a major financial recession.
    Yet, the U.S. administration seems to be incapable of 
thinking about the situation with any clarity or articulating a 
strategy with transparency. It seems unwilling to explain its 
policy or even to explain the lack of one. It seems confused as 
to what has actually happened. I would cite just one example. 
It would appear that the present tendency in U.S. policy would 
have us more deeply involved in Colombia's insurgency. Reports 
show that the guerrillas are now engaged in a major way in 
protecting and profiting from the drug trade.
    If so, and we plan to expand efforts to go after that 
trade, then stepped efforts to deal with increased drug 
production involves us in confronting the guerrillas. This 
raises a host of questions that have yet to be adequately 
addressed by the administration. It certainly has not explained 
its policy to Congress or the public, and we are left with the 
appearance of a policy of drift and dissembling.
    The drug czar, having opposed supplemental drug funding 
last year, is now asking other Cabinet members to support a $1 
billion proposal of his own, much of which is to go to 
Colombia. I hope that before any such request comes before 
Congress, if it should, that the proposal has more in it than 
just a wish list. The President has written to Senator Lott and 
Speaker Hastert about the need to work cooperatively to aid 
Colombia. I agree with that, but we need to know more about 
this. We need something to work with, and this does not mean 
another long list of goodies without thought as to purpose and 
results.
    So the situation, as I see it, is past the point when the 
sort of ad hoc, Chicken Little strategies that have 
characterized recent foreign policy will do in this instance. 
It is embarrassing that we have so little before the Congress 
or the American public by way of serious policyor honest 
discussion on what we are to do.
    Yet, we have billion-dollar proposals being floated and 
emergency aid requests submitted. I hope the hearing today can 
help us get closer to both an understanding that meets the 
circumstances. If our witnesses today cannot get us closer to 
where we need to be, I am going to look at another hearing 
where we can hear from witnesses who can tell us more.
    I hope, however, that we will hear today more about what a 
proper strategy should look like, and I will be offering 
legislation later this week specifically requiring the 
administration to deliver to Congress a detailed strategy on 
Colombia. The administration should have one already on the 
shelf, so the request, I hope, would not be burdensome. I hope 
that we will hear much more about that policy today.
    I am going to explain something about the charts, but 
before I do, I think I will go to opening comments from my 
colleagues, if they have any opening comments.
    Senator DeWine, and then Senator Sessions.
    Senator DeWine. Mr. Chairman, thank you very much. I just 
want to congratulate you for holding this hearing. I thank our 
witnesses for being here. We really look forward to your 
testimony.
    I think we all know that this country and this hemisphere 
faces a very serious crisis in regard to what is going on in 
Colombia. Last November, I again visited Colombia and I had the 
opportunity, among other things, to meet with President 
Pastrana, as well as the police and military leaders, to 
discuss how our two countries could work together better to 
eliminate drugs from our hemisphere.
    The deteriorating situation in Colombia, Mr. Chairman, 
represents a grave threat to not just the democracy of 
Colombia, but regional stability as well, and I think that that 
is something that we need to be very concerned about. What we 
really have here, Mr. Chairman, maybe to state the obvious, but 
sometimes you have to do that--what we have in Colombia is a 
number of different wars, a war that is being wage by the 
government against two separate guerrilla groups, a war against 
ruthless paramilitary organizations, and also against the drug 
lords who traffic deadly cocaine and heroin into the United 
States.
    For more than three decades, the Revolutionary Armed Forces 
of Colombia, otherwise known as the FARC, and the National 
Liberation Army, the ELN, have both waged the longest running 
insurgencies in Latin America. It is estimated--and, of course, 
no one really knows what these figures are, Mr. Chairman, but 
it is estimated that the ELN has approximately 5,000 
guerrillas, while the FARC is estimated to have a force of 
approximately 15,000. They represent a serious threat to the 
country of Colombia and the region. The Colombian military 
frankly may not be up to the task now to counter these foes; at 
least at the present time they are not. They lack a serious 
communications, intelligence and mobility capability.
    Mr. Chairman, the drug traffickers are really the lifeline 
now for the ELN and the FARC, and this is something that we 
have really not seen, to my knowledge, in world history before. 
We have insurgency groups' long commitment, who at some point 
then become enabled and funded to degrees that we a few years 
ago would have a hard time imagining the amount of money that 
flows to them. The drug traffickers are a source for weapons 
and resources for these guerrilla groups. In exchange, they 
provide protection for the trafficking organizations.
    Colombia remains the world's leading producer of cocaine, 
and a growing producer of some of the world's purest heroin. 
Sadly, Mr. Chairman, America's drug habit is subsidizing anti-
democratic guerrillas in Colombia because the drug traffickers 
use the rebels to protect their lucrative industry. To attack 
drug trafficking head-on is a direct attack on the true source 
of instability in Colombia and the region.
    With the help of my colleagues, Senators Coverdell, Graham, 
you, Mr. Chairman, Senator Sessions, and others, last year we 
passed our bill, the Western Hemisphere Drug Elimination Act. 
This was a much-needed stop toward eliminating the drug problem 
at its core, but it was only a first step. This Act authorizes 
a $2.7 billion, 3-year investment to rebuild our drug-fighting 
capability outside our borders.
    This law, Mr. Chairman, is about reclaiming the Federal 
Government's responsibility--and I might say it is our sole 
responsibility as far as the different units of Government. I 
believe in a balanced drug approach. I think we have to have 
drug treatment. I think we have to have education and we have 
to have domestic law enforcement. But this is the one area, the 
fourth component, international interdiction, where only the 
Federal Government can act. The States cannot act. The State of 
Ohio cannot act, the State of Alabama cannot act. Only the 
Federal Government can act, and I think last year we began the 
process of reclaiming this responsibility that really is solely 
ours.
    Passage of that bill is proof that Congress is providing 
the leadership in the fight against drugs. We passed this bill 
because frankly the administration, sadly, since coming into 
office has slashed funding levels for international counter-
narcotics efforts. Last year, however, through our bill we made 
an $800 million investment in previously under-funded programs.
    The facts are, Mr. Chairman, that if you look at the 
percentage of our anti-drug budget, what we have seen during 
the Clinton administration is a cut in the percentage of the 
dollars that we are putting toward our anti-drug effort. The 
actual raw dollars have stayed about the same, but if you look 
at our international drug interdiction effort, what you find is 
those dollars have remained fairly constant. But the percentage 
of our total anti-drug budget has dropped year after year after 
year, the percentage of our total anti-drug budget that goes 
for international interdiction, which is what I am talking 
about. Last year, we reversed that trend. I think it is very 
important, Mr. Chairman, that we continue to work in this area 
this year to continue what we started last year.
    Mr. Chairman, in addition to fighting the ELN and the FARC, 
Colombia also is waging a war against an umbrella organization 
of about, it is estimated, 5,000 rogue paramilitary armed 
combatants, whose self-appointed mission is to counter the grip 
of leftist guerrillas and neutralize anyone suspected of 
associating with the guerrillas; again, one more war that 
Colombia has to fight. We have not focused much attention, at 
least in public discussions, on the need to counter the 
paramilitaries, but they too benefit from the drug trade and 
account for a significant number of violent incidents in 
Colombia.
    Mr. Chairman, I believe that the United States must take a 
proactive action in Colombia. The question that we will explore 
today, however, is what is our role. And I think again, to 
state the obvious, this is Colombia's battle; this is not the 
United States'. This is a democratically-elected government in 
Colombia, and we must work with them. And much as sometimes we 
may think we know better how they should deal with their 
internal problems, it is a democratically-elected government 
and President Pastrana is working very hard to try to deal with 
these problems.
    We must work with them and we must be there to assist them, 
and I think one of the messages that Congress has to send and 
that the President has to send is just that. We believe in 
democracy, we believe in governments making their own decisions 
about how they deal with their own internal problems. There are 
a number of serious problems that this country has, the country 
of Colombia has. What happens in Colombia is vitally important 
to the United States. When drugs are found in Cleveland or 
Dayton, Ohio, the odds are very heavy they may very well come 
from Colombia, or may originate in Colombia.
    When we look at the regional stability of the region, all 
we have to do is look at the map and see where Colombia is. And 
we have already seen some of these battles spilling out and the 
consequences being felt by other countries in the region. And 
the other countries in the region are very, very sensitive to 
what is going on in Colombia. So what happens in Colombia is in 
our own backyard.
    It is time, frankly, that this country began to pay 
collectively, all of us--Congress, the President, and the 
American people, began to pay a lot more attention to what is 
going on in Colombia because in many respects what goes on in 
Colombia has a lot more influence on what happens in the United 
States, whether it be Iowa or Ohio or Alabama, than something 
that happens 2,000, 3,000 miles away.
    So I applaud you for holding this hearing. I look forward 
to hearing from our witnesses on an issue that frankly is not 
going to go away. It is going to become more and more 
important, and I think the American people are going to 
understand in the weeks and months ahead the importance of what 
is happening in Colombia to the United States, to regional 
stability, and to our goal of frankly seeing democracy flourish 
in this hemisphere.
    That is really what is at stake, two things. One is drugs 
coming into the United States, from a very selfish point of 
view and from a parochial point of view. But what also is at 
stake is the legitimacy and the survival of the government of 
Colombia.
    Chairman Grassley.  Thank you, Senator DeWine.
    Senator Sessions.
    Senator Sessions.  Thank you, Mr. Chairman. I would just 
briefly like to associate myself with both of your remarks and 
to say that I have been mentioning for some time now Colombia 
specifically as an area that this Nation has not given 
effective attention to. It is in our neighborhood. It is 
critical to the Western Hemisphere. It is a great nation, a 
longtime democracy of fine people who are suffering the agony 
of major drug distribution networks, cartels. And now we are 
looking at a strong and aggressive guerrilla effort.
    We have spent well over $20 billion on the effort in the 
Balkans that is not in our backyard. And I have wondered how it 
is that we now are sitting by and we have the Chinese 
communists having ports at both ends of the Panama Canal that 
clearly can subject that canal to sabotage and military attack, 
whenever they would choose. And now we are seeing Colombia in 
agony dealing with a Marxist guerrilla group and the amount of 
drugs coming out of Colombia and being produced there 
increasing. The numbers in the New York Times showed that we 
had 165 metric tons of production in 1993, and it is expected 
to hit 250 tons this year. That is a big increase.
    So I do not know what is happening, but I believe that this 
Government has been asleep at the switch. I believe we have not 
been alert to this problem. I am not at all sure how we ought 
to go about it, but I do believe it is a priority for us as a 
Nation, Mr. Chairman, and I thank you for highlighting it.
    Chairman Grassley.  I am going to call attention to the two 
charts--well, one chart and one map. The first chart will show 
a tremendous increase in the number of hectares that are in 
cultivation, the number of acres that have been sprayed, and 
the amount of coca that has actually been killed as a result of 
that activity. It shows a trend in coca cultivation and cocaine 
production in the Andean region for 1996 through 1998.
    I would also like to have my colleagues today especially 
focus on the map of Colombia that we have set up, and we will 
be talking a lot about geographic areas around the country and 
hopefully this map will be of a lot of help. This map is 
provided by the General Accounting Office. The brown areas show 
where coca cultivation is concentrated. And then we are going 
to overlay that now with a red shaded area showing opium 
cultivation and how that has grown. And then with the final 
overlay, the blue shaded area denotes the regions controlled by 
insurgent groups. There are also smaller versions of this map, 
including a new one showing where the demilitarized zone is 
located, in each Member's packet.
    Before I introduce the panel, I also would like to implore, 
when we make a request to have our testimony two days ahead of 
time, that that does mean two days. I know that obtaining 
clearance for some of this hearing from OMB is a very necessary 
process and we do not argue with that, but it makes it very 
difficult for us to be able to prepare for a hearing when we do 
not have the testimony on time as we have requested it in our 
letter.
    The first panel consists of Rand Beers, the Assistant 
Secretary for International Narcotics and Law Enforcement 
Affairs with the Department of State. Then we will have Brian 
Sheridan, Assistant Secretary for Special Operations and Low-
Intensity Conflict from the Department of Defense, and then 
lastly, General Charles Wilhelm, Commander in Chief of U.S. 
SOUTHCOM in the Department of Defense.
    I thank you all for being here, and we will start with you, 
Mr. Beers, and we will have all of you testify and then we will 
ask questions afterwards. Thank you.

   STATEMENT OF RAND BEERS, ASSISTANT SECRETARY, BUREAU FOR 
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT 
                            OF STATE

    Mr. Beers.  Thank you very much, Mr. Chairman and members 
of the caucus. I want to thank you for this opportunity to be 
here today to talk about the situation in Colombia and our 
ongoing policy review. As is almost always the case, you have 
organized the hearing with an absolutely appropriate time frame 
in terms of where policy deliberations are and where we are in 
terms of our discussions with the government of Colombia.
    What the United States does or does not do in Colombia over 
the next few years, and perhaps over the next several months, 
will have a great impact on the future of that country, and I 
daresay the United States as well. Colombia's national 
sovereignty is increasingly threatened not from any democratic 
elements in the military or the political sphere, but from 
narcotrafficking interests and the well-armed and ruthless 
guerrillas and paramilitaries to whom they are inextricably 
linked.
    Although the central government in Bogota is not directly 
at risk, these threats are eroding the authority of the central 
government and depriving it of the ability to govern in 
outlying areas. And it is in these very areas where narcotics 
traffickers, paramilitary and guerrilla groups flourish that 
the narcotics industry is finding refuge, as you have so ably 
indicated on the map which you presented at the beginning of 
the hearing.
    The links between narcotics trafficking and the guerrillas 
and paramilitary movements are well-documented. Reporting 
indicates that the guerrilla groups protect illicit fields and 
labs, transport drugs and precursor chemicals within Colombia, 
run labs, encourage and intimidate peasants to grow coca, 
accept drugs as payment from narcotics traffickers and resell 
those drugs for profit, and trade drugs for weapons, including 
the possible shipment of drugs outside of Colombia to Brazil 
and Venezuela for such trades. Paramilitary groups also have 
clear ties to important narcotics traffickers, and obtain much 
of their funding from those traffickers.
    The strength of Colombia's armed insurgent groups has 
limited the effectiveness of joint U.S.-Colombia counter-
narcotics efforts. While aggressive eradication has largely 
controlled the coca crop in the Guaviare region and is 
beginning to make inroads in the Caqueta region, any gains that 
have been made have been more than offset by the explosive 
growth in the coca crop in Putumayo, the southernmost area that 
you have on your map, an area in southern Colombia which until 
recently has been off limits from spray operations because the 
Colombian National Police have been unable to secure a base 
there due to heavy guerrilla presence.
    We are also unable to carry out any meaningful alternative 
development programs in most of the coca-growing region, 
especially in southern Colombia, because the Colombian 
government lacks the ability to conduct the monitoring and 
enforcement necessary for the success of such programs. In 
order for our counter-narcotics programs ultimately to be 
successful, we cannot allow certain areas of the country, like 
Putumayo, to be off limits for counter-narcotics operations.
    Fortunately, there are reasons for optimism. The Colombian 
National Police has continued its superb record of counter-
narcotics activity, and now the CNP's commitment to counter-
narcotics has also been adopted by the Colombian armed forces. 
In conjunction with this change in focus, the current military 
leadership is guarding the country's armed forces through a 
cultural transformation which, if sustained, bodes well for the 
future of Colombia.
    Defense Minister Ramirez and Armed Forces Commander Tapias 
have taken dramatic steps to deal with the legacy of human 
rights abuses and impugnity that have clouded our bilateral 
relations in the past. Concurrent with this effort to clean up 
the military is a renewed effort to counter-narcotics. The new 
leadership realizes that one of the best ways to attack the 
guerrillas is to attack their financing in the form of 
narcotics profits, whether through cultivation, processing, or 
transportation.
    The Colombian Army is forming a brand new counter-narcotics 
brigade specifically designed to work in conjunction with the 
Colombian National Police on the counter-narcotics mission, 
initially in the sanctuary areas in southern Colombia. The 
Colombian Air Force has undertaken an aggressive program to 
regain control of their air space and deny its use to 
traffickers by extending north coast operations to southern 
Colombia. The Colombian Navy is working closely with U.S. 
forces on maritime interdiction and has participated in many 
significant seizures, despite limits on equipment and operating 
funds. The Navy and Marine Corps are now ready for interdiction 
operations on the Colombian river systems, including in 
southern Colombia. Overall, cooperation with the Colombian 
military on counter-narcotics operations has never been better.
    INL is working directly with the Colombian military in two 
important areas. First, we are coordinating with SOUTHCOM and 
the Department of Defense to provide training and equipment for 
the Colombian Army's new counter-narcotics battalion that I 
mentioned previously. The mission of this unit is to conduct 
counter-narcotics operations initially in southern Colombia and 
to provide force protection for the Colombian National Police.
    In addition to training and equipment which DoD is 
providing, we are providing mobility to that unit in the form 
of 18 UH-1N helicopters. We are also working to improve the 
Colombian security forces' ability to collect, analyze and 
disseminate intelligence on counter-narcotics activities and on 
insurgent activity which could threaten counter-narcotics 
forces.
    One of the top priorities of the Pastrana government is 
implementing a peace process to bring an end to violent 
conflict that has drained that nation for four decades. One of 
the key limitations confronting the Pastrana administration 
during the negotiations, however, is that the guerrillas 
currently feel little pressure to negotiate. Their 
intransigence is fueled by the perception that the Colombian 
armed forces do not pose a threat. This is another reason that 
we are looking carefully at what we may do to aid the military 
in its counter-narcotics mission.
    Over the past several weeks, the government of Colombia has 
developed a comprehensive strategy, the Plan Colombia, to 
address the economic security and drug-related problems facing 
that country. Colombia has invited the U.S. Government to 
contribute to the development of this plan and we have worked 
closely with them for over a month now.
    Clearly, it has resource implications. We understandthat 
the majority of the resources will come from Colombia itself or from 
international financial institutions. Colombia estimates that over the 
next 3 years, they need to spend $7.5 billion to deal with the 
combination of counter-narcotics issues, the economic problems facing 
the country, and social development issues related to drug trafficking 
and corruption.
    Of that, they plan to spend or taken on additional debt 
burden of $4.75 billion, and they are looking to the 
international community to contribute the remainder of that 
money and they will be here in town tomorrow to talk to Members 
of Congress after talking with the President in New York today.
    We are currently involved within the administration in 
discussions regarding about how we can use existing authorities 
and funds to support the counter-narcotics operations in 
Colombia, and we are also ready now to work with the Colombians 
to assess the additional resource implications of their 
strategy and the optimum ways in which the United States can 
further assist.
    But let me say with respect to the issue of a coherent 
strategy, Mr. Chairman and members of the caucus, we have been 
working with the government of Colombia now for over a month. 
As Senator DeWine said, this is a Colombian problem, this is a 
Colombian strategy that we have received from them, and we are 
now in the posture of working with them to define what our role 
might be in association with them.
    It is a strategy that engages all elements of the Colombian 
government. It is a broad-reaching strategy that includes the 
relationship of the peace process to the economy, to social 
development, to the counter-narcotics efforts. The bulk of the 
resources that they are looking to devote to this effort will 
go to the counter-narcotics effort. That is $4.8 billion over 3 
years.
    It is a strategy designed to go after drug trafficking, 
particularly in southern Colombia, in order to take the 
resources away from drug traffickers and to take the resources 
away from the insurgents who profit from that drug trafficking. 
If they can move into that area in southern Colombia, the 
Caqueta-Putumayo area that is in the southernmost area of the 
country that you have defined on your map, they will have taken 
on what is currently a sanctuary and what is currently the 
largest growing area in Colombia for cocaine. They will not 
neglect the other areas in the country, but that will be the 
initial area that they will want to be going into.
    I think they have given us an outline of a very coherent 
and directed strategy that we should be able to work with them 
in order to deal with. And I hope in the days and weeks ahead 
that we will be in a better position to come up to respond to 
your request, Mr. Chairman, that the administration and the 
Congress engage in a discussion of Colombia, as the President 
indicated in his response to Senator Lott and to Speaker 
Hastert.
    The problems of narcotics in Colombia are daunting and 
complex. While it is convenient to think of it in criminal 
terms, it is undeniably linked at a fundamental level to the 
equally complex issues of insurgency and paramilitaries, and 
any action that we take directed at drug trafficking will also 
have implications for both of those groups. Because of this, it 
is all the more important to maintain our focus on the counter-
narcotics question at hand.
    In Colombia, we have a partner who shares our concerns, and 
a leadership that regularly demonstrates a political will to 
execute the needed reforms and operations. Our challenge as a 
neighbor and a partner is to identify the ways in which the 
U.S. Government can assist the Colombian government and to 
assure that we are able to deliver that assistance in a timely 
manner. I look forward to working with you and other Members of 
Congress in the challenge that we face ahead.
    Thank you very much.
    Chairman Grassley. Thank you very much.
    [The prepared statement of Mr. Beers follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.001
    
    [GRAPHIC] [TIFF OMITTED] T0923.002
    
    [GRAPHIC] [TIFF OMITTED] T0923.003
    
    [GRAPHIC] [TIFF OMITTED] T0923.004
    
    [GRAPHIC] [TIFF OMITTED] T0923.005
    
    [GRAPHIC] [TIFF OMITTED] T0923.006
    
    [GRAPHIC] [TIFF OMITTED] T0923.007
    
    Chairman Grassley. Now, we go to Secretary Sheridan.

 STATEMENT OF BRIAN E. SHERIDAN, ASSISTANT SECRETARY, SPECIAL 
  OPERATIONS AND LOW-INTENSITY CONFLICT, DEPARTMENT OF DEFENSE

    Mr. Sheridan. Senator Grassley, let me start by echoing 
Rand's comments that your timing was exquisite on this hearing. 
This is exactly the right moment to have this dialogue. Let me 
also thank Senator Sessions, Senator DeWine and Senator Graham 
for coming also this morning.
    Senator DeWine, your leadership last year on the 
supplemental was very much appreciated by all of us who work in 
the counter-drug effort. And Senator Graham's longtime interest 
in the hemisphere and his leadership is well-recognized.
    I have submitted a written statement for the record, so my 
oral comments will be very brief. Speaking from a Department of 
Defense perspective, we are focusing principally on the cocaine 
threat that emanates from Colombia. As you well know, 
approximately 80 percent of the cocaine that enters the United 
States at some point transits Colombia, as well as a growing 
percentage of the heroin that enters the U.S. And the 
cultivation of both coca and poppy continue to flourish in 
Colombia. That is the threat that we are focused on.
    We have been working with the Colombians in counter-
narcotics since 1989, when directed to do so by theCongress. 
Our policy is very simple, it is not confused. It is to eliminate the 
production of illegal drugs in Colombia, in partnership with the 
Colombian government. We are not in the counter-insurgency business.
    As Rand explained, the situation on the ground in Colombia 
is increasingly complicated, but our policy is very 
straightforward. We are working with the Colombian government 
on counter-narcotics programs. We are not in the counter-
insurgency business. Our work with them for the last 10 years 
has focused on detection and monitoring support and to help 
them interdict illegal flows of cocaine, training, and 
intelligence support.
    Over the last year or two, we have been involved in a 
number of initiatives to enhance their air programs, upgrading 
their aircraft. On the ground, we are focusing on the training 
of the counter-drug battalion, and on the rivers we are working 
with them on a revitalized riverine program, both to stop the 
flow of coca products, but more importantly to interdict the 
flow of precursor chemicals.
    The military has made great strides over the last couple of 
years in two very important areas, both in its commitment and 
improvement on human rights grounds, which I think is very 
commendable, and I think under-noticed, if I might say, in the 
United States, and under General Tapias and Minister Ramirez a 
real commitment to reforming the Colombian military to make it 
more effective as it performs the tasks that the president 
directs it to perform.
    Let me close by echoing Rand's comments that this is a 
Colombian problem. Senator DeWine, you also mentioned this. 
They have come up with what we think is a very good, integrated 
strategy. Our policy is very straightforward to support the 
democratically-elected government of Colombia, and that is our 
task and that is what we are doing.
    I look forward to your questions.
    Chairman Grassley. Thank you, Mr. Sheridan.
    [The prepared statement of Mr. Sheridan follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.008
    
    [GRAPHIC] [TIFF OMITTED] T0923.009
    
    [GRAPHIC] [TIFF OMITTED] T0923.010
    
    [GRAPHIC] [TIFF OMITTED] T0923.011
    
    [GRAPHIC] [TIFF OMITTED] T0923.012
    
    [GRAPHIC] [TIFF OMITTED] T0923.013
    
    [GRAPHIC] [TIFF OMITTED] T0923.014
    
    [GRAPHIC] [TIFF OMITTED] T0923.015
    
    [GRAPHIC] [TIFF OMITTED] T0923.016
    
    [GRAPHIC] [TIFF OMITTED] T0923.017
    
    Chairman Grassley. Now, General Wilhelm. Thank you.

 STATEMENT OF GENERAL CHARLES E. WILHELM, COMMANDER IN CHIEF, 
     UNITED STATES SOUTHERN COMMAND, DEPARTMENT OF DEFENSE

    General Wilhelm. Chairman Grassley, distinguished members 
of the caucus, I am pleased to appear before you this morning 
to discuss our activities in Colombia. This is a crucial issue 
and it is one that we at Southern Command believe is of great 
importance not only to Colombia and to the United States, but 
to the entire hemisphere.
    When I arrived at Southern Command 2 years ago, I described 
Colombia as the most threatened nation in our hemisphere. 
Today, I stand behind that assessment. In fact, over the past 2 
years the situation in Colombia as it pertains to internal 
security and stability, if anything, the threats have 
intensified. Despite that, as I testify before you today, I am 
cautiously optimistic about Colombia's future. I am optimistic 
for three reasons.
    The first is leadership. I have been in and out of Colombia 
for a variety of military purposes for over a decade. The 
current leadership in Colombia from the top down, from the 
president through the military leadership, is the best, the 
most ethical, and the most focused that I have ever worked 
with. Dealing with people like General Tapias, General Serrano, 
General Mora Rangel, the commander of the Army, General 
Velasco, the commander of the Air Force, Admiral Garcia, the 
commander of the Navy, I am dealing with top-flight 
professionals. These are men with a deep and abiding sense of 
ethics. They care about their troops and they know what they 
are doing, and they have a vision for the future. So I am 
encouraged by the leadership that I see.
    The second thing that encourages me and causes me to have 
some cautious optimism are recently battlefield successes 
enjoyed by the armed forces. There can be no mistake about it. 
We watch this very closely. My number was ten; there were ten 
stinging tactical defeats in succession that were suffered by 
Colombia's armed security forces. But then we saw the July 
country-wide offensive initiated by the FARC, and there I saw 
some not so subtle changes in the complexion of the 
battlefield.
    I visited Colombia. I talked in great length with all of 
the military leaders. They presented me with convincing and 
compelling evidence that in a significant number of 
engagements, the military had prevailed. They prevailed for 
good reasons. They corrected some of the mistakes that they 
have made in the past. Their intelligence and intelligence-
sharing was much improved. I saw levels of cooperation and 
coordination between the National Police and the armed forces 
that I had not seen before. And, finally, I saw unparalleled 
improvement in air/ground coordination, andthat made a major 
difference during July.
    I share the widely held view that the ultimate solution to 
Colombia's internal turmoil lies at the negotiating table and 
not on the battlefield. However, for negotiations to succeed, I 
am convinced that the government must strengthen its 
negotiating position and I believe that increased leverage at 
the negotiating table can only be gained on Colombia's 
battlefields.
    The military component of Colombia's emerging national 
strategy that both Rand and Brian have mentioned targets narco-
trafficking as its point of main effort on the military side. I 
agree with this approach. The best and most efficient way to 
eliminate the insurgents and para-militaries who are wreaking 
havoc on 50 percent of the countryside is to eliminate their 
support base. Deprived of the revenues and other support they 
derive from their alliance with narco-traffickers, I believe 
the insurgents will be weakened to the point where they will be 
compelled to participate in meaningful negotiations that will 
hopefully lead to peace and reconciliation. Denied an adversary 
and with reassertion of government control over currently 
disputed areas, I am equally convinced that the illegal para-
military groups will literally die on the vine.
    Colombia is headed in the right direction, in my judgment, 
but to reach their destination, they will need our continued 
help. We must continue to assist Colombia in its efforts to 
reform and revitalize its armed forces.
    At the same time, we must assure that our own forces are 
postured to do the job. Accurate and timely intelligence are 
essential for success against the narco-traffickers and are a 
key ingredient in our own force protection programs.
    As we have drawn from Panama, as we must under the 
provisions of the 1977 Panama Canal treaties, Southern Command 
has been required to completely rebuild its theater 
architecture from the ground up. We have come a long way in the 
past year. U.S. Army South and Special Operations Command South 
have completed their migration from Panama to Puerto Rico. We 
will soon stand up a new Navy component headquarters at 
Roosevelt Roads. We have merged the two joint interagency task 
forces that conducted execution, planning, and supervision of 
our counter-drug operations in both the transit and source 
zones into a single integrated organization at Key West.
    But this morning, from a counter-drug perspective, and I 
think looking widely at our needs in Colombia, the single most 
critical part of the architecture is not in place. Probably the 
most priceless facility that we had on Panama was Howard Air 
Force Base. That runway closed on the first of May of this 
year. Previously, during any average year, we had somewhere in 
the neighborhood of 21 aircraft on the runways and taxiways at 
Howard Air Force Base, and every year, they flew about 2,000 
detection, monitoring, tracking, and intelligence missions in 
support of our important work in the Andean Ridge.
    To compensate for the loss of Howard Air Force Base, we 
identified a series of forward operating locations, host nation 
airfields that we would simply negotiate access agreements to 
and from there conduct the operations that we previously 
conducted from Howard. Short-term agreements have been reached 
with the Netherlands and we are operating out of Curacao and 
Aruba in the Netherlands Antilles and we are closing on a final 
long-term agreement with Ecuador for the air field at Manta.
    The Manta air field is one that I would really like to 
focus on because it is truly the linchpin in the fall 
apparatus. Manta gives us the site that we need to provide 
effective coverage of the crucial Colombia, Peru, and Ecuador 
borders, all of Peru, and Bolivia, in simple terms, the deep 
source where the drugs are grown and produced. It is the 
linchpin of the apparatus.
    We need $42.8 million in the next fiscal year and a total 
of $122.5 million in fiscal year 2000 and 2001 to bring these 
three FOLs on line, to give them the capacity, the operating, 
and the safety features that they need to sustain operations at 
roughly the same tempo that we conducted them previously from 
Howard Air Force Base.
    That request is going to committee, I believe, within the 
next couple of weeks. Anything that the members of the caucus 
could do to support this funding would be greatly appreciate 
and, I think, would aid enormously--enormously--our shared 
counter-drug efforts with Colombia and the other nations in the 
source zone.
    Mr. Chairman, in your letter of August 12, you highlighted 
our policy goals in Colombia and the counter-insurgency versus 
counter-narcotics issue. From a military perspective, I believe 
our policy in Colombia has been clear and consistent. We have 
focused exclusively on counter-narcotics assistance. The rules 
are clearly understood by our troops. We are there to train, 
equip, and provide technical assistance. We have strictly 
avoided involvement in field tactical or advisory roles. The 
direction of the new Colombian strategy, I am glad to say, is 
consistent with this policy.
    Our efforts in Colombia are vitally important. We are 
profoundly grateful to this caucus for its interest and for 
your support of our initiatives and I hope that we can count on 
it in the important weeks and months ahead.
    Mr. Chairman and members of the caucus, I look forward to 
your questions. Thank you.
    [The prepared statement of General Wilhelm follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.018
    
    [GRAPHIC] [TIFF OMITTED] T0923.019
    
    [GRAPHIC] [TIFF OMITTED] T0923.020
    
    [GRAPHIC] [TIFF OMITTED] T0923.021
    
    [GRAPHIC] [TIFF OMITTED] T0923.022
    
    [GRAPHIC] [TIFF OMITTED] T0923.023
    
    [GRAPHIC] [TIFF OMITTED] T0923.024
    
    [GRAPHIC] [TIFF OMITTED] T0923.025
    
    [GRAPHIC] [TIFF OMITTED] T0923.026
    
    [GRAPHIC] [TIFF OMITTED] T0923.027
    
    [GRAPHIC] [TIFF OMITTED] T0923.028
    
    [GRAPHIC] [TIFF OMITTED] T0923.029
    
    [GRAPHIC] [TIFF OMITTED] T0923.030
    
    [GRAPHIC] [TIFF OMITTED] T0923.031
    
    [GRAPHIC] [TIFF OMITTED] T0923.032
    
    [GRAPHIC] [TIFF OMITTED] T0923.033
    
    [GRAPHIC] [TIFF OMITTED] T0923.034
    
    [GRAPHIC] [TIFF OMITTED] T0923.035
    
    [GRAPHIC] [TIFF OMITTED] T0923.036
    
    [GRAPHIC] [TIFF OMITTED] T0923.037
    
    [GRAPHIC] [TIFF OMITTED] T0923.038
    
    [GRAPHIC] [TIFF OMITTED] T0923.039
    
    Chairman Grassley. I will start with Mr. Beers, but I have 
questions of other people, as well. What you have described 
today, I think my point is to make a point and ask you if what 
you have described today is supposed to make a difference. Now, 
as I outlined in the previous chart that was there, we have had 
a very ambitious eradication program in Colombia against coca, 
but the result has been the doubling of the coca crop and 
increases in the productivity so that Colombia will be 
producing more today than last year or at any time in recent 
history.
    What I think I have heard you say in your statement, it 
appears that our policy for Colombia is to be more of the same 
and lots more of it, sort of a more of it squared, than what we 
have had in the past. Then compare that with the history of 
increased production we have. Do you describe that as success, 
and can you tell us why we should have confidence that the plan 
you have suggested today is going to make a difference?
    Mr. Beers. Thank you, sir. Let me go into some more detail 
in response to your question. Firstly, with respect to the 
issue of aerial eradication, the numbers which you have 
indicated in terms of the overall increase in cultivation of 
coca in Colombia are our best estimates of that. What they do 
not reflect is the detailed breakdown of the areas of 
concentration of our counter-narcotics effort in eradication.
    There are, or at least there used to be, three major 
growing areas of coca in Colombia, the large blob on the right 
known as Guaviare and the somewhat smaller blob in the south 
central which actually is the merger of both Caqueta and 
Putumayo growing areas. The principal area that the United 
States has supported Colombia in eradicating has been in the 
Guaviare area, and for the last two years, the overall levels 
of cultivation in that area have declined.
    With respect to the Caqueta area, we have begun a serious 
effort really only last year, and the increase in the Caqueta 
area, which is that section there, as opposed to this section 
here, in that particular area, there was a less dramatic 
increase than there had been before.
    With respect to that southern finger, the Putumayo, that is 
the area where the increase has been most expansive. That is 
the area where we expect the increase to be even more dramatic 
next year because that is the area that there has been no 
counter-narcotics effort in, and that is the area that we are 
looking to work with the government of Colombia in order to 
take on, additional effort in Caqueta, more initial effort in 
Putumayo.
    That is the eradication portion only, and that would be an 
expansion of the existing effort. But I think that there are 
two very important additional elements in the strategy that I 
was describing which are new, which are not extensions of 
previous activities.
    Firstly, the counter-narcotics battalion, which we have all 
three described to you, is a new initiative on the part of the 
Colombian military to become more involved in these activities. 
All of that eradication effort that has occurred heretofore has 
occurred with minimal or no involvement by the Colombian 
military on the ground in order to secure the ground during and 
after an eradication effort in order to sustain that 
eradication effort. This is a new proposal on the part of the 
Colombian government for which they are organizing forces in 
order to take on this strategy.
    Secondly, the Colombian air force, which has had some 
success up on the north coast with air interdiction, is looking 
now to move that effort to the south. Why is that different? 
Because the effort in the north was devoted at going after 
airplanes that had already acquired finished cocaine and were 
flying north to deliver that cocaine to drop-off points for 
further trans-shipment to the United States or Europe.
    In the south, what we are looking at is going after the air 
traffic of the narco-trafficking industry at a point in the 
process where we are talking about the first and second levels 
of processing, that is, to prevent the leaf from being sold, to 
prevent the base and paste from being sold and moved to final 
processing. If you think about the effort that was undertaken 
in Peru over the last four or five years and the dramatic drop 
in the price of coca leaf for farmers which caused the 50 
percent decease in cocaine production in Peru, that is the 
effort that we are looking to try to do similar work in 
Colombia. This would represent a new departure on the part of 
the Colombian government and we are working with them in order 
to affect that.
    We do not believe that any single effort, any single 
strand, or any single tool in the counter-narcotics effort is, 
by itself, enough. This is a joint strategy within Colombia. It 
is a combined strategy with the United States. It is an effort 
to use as many possible tools as possible in order to go after 
the trafficking industry, and we think with the broader-gauged 
and more comprehensive commitment on the part of the Colombian 
government and our working together with them, that, yes, this 
does stand an important, significant chance of making the 
serious inroad in the trafficking industry in Colombia that you 
and we and the American people all want. Thank you very much, 
sir.
    Chairman Grassley. Do I hear you say, then, assuming that 
we kind of agree that we have had this dramatic increase in 
cultivation and production, you are saying that the successes 
that have been made in south central, and then my saying more 
of the same, that that will have a parallel accomplishment in 
other growing areas?
    Mr. Beers. I believe, sir, that increasing some of the 
things that we are already doing, together with the new 
programs, is what will make the significant difference here. 
What we have is a comprehensive program. What we had before was 
a program that did not have the breadth and vision that this 
program has, and that is why we are enormously appreciative of 
the Colombian government's ability to pull together this 
strategy and present it to us and why we want very much to work 
with them.
    Chairman Grassley. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. You indicated, Mr. 
Beers, that two of the principal elements of the Colombian plan 
are the use of the military in drug eradication and shifting 
air assets further south so that they would interdict the 
process before crystallization and not after crystallization, 
is that correct?
    Mr. Beers. That is correct, sir.
    Senator Graham. There is some evidence that one of the 
contributors to the increased production in Colombia has been 
the fact that there has been introduced a new strain of coca 
plant which is more resistant and which also has a higher 
overall yield of coca hydrochloride. Is that your information, 
as well?
    Mr. Beers. Yes, sir. We do not have the final figures on 
the extent of that shift, but it is correct. We have seen 
evidence and have been reporting it for the last several years, 
that the higher-yielding variety of coca called e coca coca, 
which is grown in Peru and Bolivia, appears now to have entered 
into the Colombian cocaine equation, whereas before, they had a 
much lower-yielding, roughly three-to-one ratio of coca, which 
was called ipidu. So, yes, we are looking at not only the 
increase in the overall hectorage of coca that is being grown, 
but we are also looking at the likely increase in the yield 
characteristics as we measure and translate that cultivation 
into actual processed cocaine that will probably be available 
in this coming year, that is, the 1999 estimate, which will be 
available at the beginning of 2000.
    Senator Graham. Since this new strain is a relatively new 
introduction into Colombia, as you say, and we have already 
seen almost a doubling of coca production in Colombia, what do 
we anticipate that this new development in the agronomy of coca 
production will mean in terms of volume?
    Mr. Beers. Sir, in terms of the tactics of dealing with the 
drug trafficking issue, this coca is still susceptible to 
aerial eradication in the same way that the ipidu version was. 
But in addition to that, we are also looking, as I mentioned, 
about the introduction of ground forces to try to maintain the 
control on the ground once the eradication has been undertaken 
and to allow the government then to extend in the form of their 
control the option of some kind of alternative economic 
activity to the farmers who are currently drawn into that area 
by the gold rush mentality created by the high profits that 
come from the coca industry.
    So we hope, in combination, to present them with a clear 
deterrent for why they will not be able to take that coca to 
market and with some alternative economic activity so that they 
can consider other forms of economic work other than growing 
coca.
    Senator Graham. In addition to the focus on eradication and 
air interdiction, what does the Colombian plan call for in 
terms of attacking the crystalline labs where the coca paste is 
converted into cocaine?
    Mr. Beers. The Colombia national police will, with now the 
support of the military, continue their effort to go after 
those labs. We have several efforts to see if we cannot 
identify those labs more effectively by national technical 
means in addition to the normal human intelligence, which has 
often been the way that we have discovered where those 
laboratories are. But we believe that the additional presence 
of Colombian military along with the police on the ground in 
the region will help considerably in terms of going after those 
labs.
    If you were to look at the statistics that came out of the 
effort of Colombian Task Force South, which was located at Tres 
Esquinas and the operations that were conducted out of that 
region for the last year, you would see a dramatic increase in 
the number of labs that were taken down, and that is a direct 
result of the increased presence of Colombian military and 
police on the ground in that region. It becomes a lot more 
difficult when the sanctuary is no longer a sanctuary to 
operate with impugnity and lawlessness in the way that the 
traffickers had been able to do before.
    In addition to that, as I mentioned and others have 
mentioned, the Colombian navy and marine corps have stood up an 
important riverine force that will operate on the rivers in 
this area, but more broadly, throughout Colombia. One of the 
major activities that they will be looking at, in addition to 
the air interdiction effort, will be to prevent the transit of 
drugs and precursor chemicals over the riverine system in 
southern Colombia. In addition to that, the Colombian national 
police and the army will also be looking to dampen the flow of 
precursor chemicals into this region.
    There is one particular chemical, potassium permanganate, 
which is part of a major interdiction effort on the part of the 
Colombian government, to prevent its flow into the region, 
because it is the one essential of all of the precursors that 
cannot be substituted for.
    But in addition to that, the Colombian national police and 
military have been doing an important job in controlling that 
flow so that we have discovered, they have discovered, that the 
traffickers are now, in an effort to find acceptable chemicals, 
beginning to use cement as a substitute for one of the 
precursor chemicals in the region, so that General Serrano told 
us recently that the amount of cement that appears to have been 
going into the region is actually greater than the amount of 
cement being used in the city of Bogota. So they have begun a 
major effort to now control the flow of the common building 
material of cement because they are using that as one of the 
precursors. That is part of a broader effort at precursor 
control in the region.
    Senator Graham. With the increase in production of coca in 
Colombia, has there been a commensurate increase in the number 
of crystalline labs?
    Mr. Beers. Sir, I do not have that figure for you, but I 
will try to get it for you from the intelligence community.
    Senator Graham. You indicated that we seem to have 
increased the number of labs that we have been able to 
eliminate. Do you have any sense of what percentage those 
eliminations were of the total of operating labs?
    Mr. Beers. No, sir, I do not, but I will get that for you, 
also.
    Senator Graham. I might say, just in conclusion, it has 
seemed to me, and I defer to the judgment of people who know a 
lot more about this business than I do, that the most 
vulnerable point in the production of cocaine is at the 
crystalline labs. That is where you have the smallest number of 
sites which are critical to converting the relatively raw 
product into a commercially salable product, and that that 
would be a site that ought to get substantial attention in 
terms of our effort to break down the chain of operations 
necessary to produce this product that does so much evil to the 
people of the world.
    Mr. Beers. Yes, sir, I would agree with you, would that we 
had perfect knowledge of where all those labs were located, 
because you are absolutely right. That would be the funnel 
point that would allow us the greatest success if we were able 
to identify where they were located in their entirety. Thank 
you, sir.
    Chairman Grassley. Senator DeWine?
    Senator DeWine. Thank you, Mr. Chairman. Secretary Beers, 
just to kind of complete the picture, can you take Senator 
Grassley's map and tell me where the DMZ zone is?
    Mr. Beers. Yes, sir. It is located in this area, which 
touches on the northern part of the Caqueta growing area and 
the eastern tip of the Guaviare growing area. It is an area 
about of that size there. It is not centered in any of the 
major growing areas, but it is on the periphery of each of 
those growing areas.
    Senator DeWine. And just for the record, the area that you 
just described and just showed us on the map, what percentage 
of what Senator Grassley has labeled insurgent controlled area, 
what percentage of that blue area would that have been, that 
you described as the DMZ? Is that a fifth of it a fourth of it 
or what is it?
    Mr. Beers. No, sir. It is much smaller than that.
    Senator DeWine. Much smaller than that?
    Mr. Beers. Yes, sir.
    Senator DeWine. What would you say it is?
    Mr. Beers. We are talking about an area, based on the 
Senator's blue circumscribed area, that is probably less than 
ten percent of that area.
    Senator DeWine. Thank you. General Wilhelm, I appreciate 
your comments about Manta and the need for Manta and I want to 
maybe zero in a little more on the need, as you perceive it, 
for Manta and how that directly impacts our overall anti-drug 
strategy in the region and how it impacts specifically on what 
we intend to do in Colombia, if you could just go through that 
in maybe a little bit more detail than you did. You touched on 
it, and I understand that, but just in sort of layman's terms, 
what difference does that make as far as what we can do to help 
Colombia, which is the topic of this hearing?
    General Wilhelm. Yes, Senator DeWine. First, I think the 
most helpful way to discuss the forward operating locations is 
to view them for what they are, which is a network. It is an 
interdependent network. No one FOL by itself will adequately 
answer our needs to conduct detection, monitoring, and tracking 
and aerial reconnaissance missions in support of our counter-
drug efforts.
    I will start, sir, with Curacao and Aruba and then talk a 
minute about Central America and then close on Manta, which is 
the most important FOL location, in my judgment, given the drug 
threat that we face now.
    First, Curacao and Aruba. Located where they are, adjacent 
to Venezuela, those two locations provide us excellent coverage 
of what I call the southern transit zone, the southern 
Caribbean region, and the northern source zone, Venezuela and 
northern Colombia.
    Then we have identified a need for an FOL in Central 
America. I will cover this very briefly. I think our needs 
could be met from any of a variety of locations. My preferred 
site is the Liberia air field in Costa Rica, but there is a 
bilateral counter-drug and maritime agreement that needs to be 
concluded before we can logically open this next negotiating 
segment with Costa Rica.
    But whatever FOL we end up selecting and negotiating in 
Central America, it will provide coverage of Central America, a 
large portion of the important eastern Pacific transit routes, 
which we have not been covering adequately in recent years, and 
it will also provide us overlapping coverage of a small portion 
of the northern source zone, again, looking at the Colombia-
Venezuela portion, which brings us to Manta.
    Manta provides us immediate access to the very important 
Peru-Colombia-Ecuador border region where the cocaine 
hydrochloride, the base is moved to laboratories for 
refinement. It is a major movement vector for precursor 
chemicals. From Manta and only from Manta can we get what I 
call coverage of the deep source zone, which is the rest of the 
world. I think we would be ill advised to pursue a Colombia-
only strategy.
    We need to pay careful attention to the successes that we 
have had in Peru and Bolivia and we need to sustain those 
successes. I know that the caucus knows the numbers. Last year, 
Peru reduced its production by 26 percent, Bolivia by 17 
percent in terms of leaf, and in terms of base, about 25 
percent in both countries. So we need to sustain our progress 
there. From Manta and only from Manta can we reach down and 
cover the deep southern portion of the source zone.
    If you look at all of that in the aggregate, sir, at the 
end of the day, from this network of FOLs, we will have far 
better and more efficient coverage of the entire area of 
interest from a counter-narcotics standpoint than we ever had 
from Howard Air Force Base and at a considerable savings. The 
annual cost of operating Howard Air Force Base in its last full 
year of operations was $75.8 million. It will take us $122.5 
million to develop the FOLs, as I mentioned earlier, to expand 
their capacities, to improve their operating and safety 
conditions to the point that we can conduct operations in the 
frequency and intensity that we need to, $122.5 million over 
two years, a one-time cost. Thereafter, our annual operating 
costs, we estimate between about $14 and $18 million a year.
    So when the structure is in place, over a ten-year span, 
and I suspect we are looking at about a ten-year struggle here, 
the FOLs would support our efforts at about 40 percent of the 
straight-line costs that we would have incurred operating 
Howard Air Force Base as a permanent facility.
    So, sir, as a network of operating locations, a brief look 
at some of the fiscal implications of what we are talking 
about, and, of course, we do escape the sovereignty issues 
because these remain host nation facilities and bases to which 
we simply have access authorization.
    Senator DeWine. General, how long would it take to get 
Manta up?
    General Wilhelm. Sir, we believe that we can do most of the 
heavy hauling--to put it in very simple terms, we need to dump 
about $30 million worth of concrete into that runway to make it 
capable of taking our big airplanes. Big airplanes to us are 
AWACs and tankers. Those are the long-reach, long-look 
airplanes that we need to do the job in the deep-source zone.
    Senator DeWine. It would take how long?
    General Wilhelm. Sir, we can let those contracts and get 
most of that done during fiscal year 2000.
    Senator DeWine. What assurance do we have we get to stay 
there?
    General Wilhelm. I talked with Ambassador Rich Brown about 
48 hours ago, sir. We have one final point on taxes to resolve 
with the Ecuadorians and it looks as though we will either have 
a ten-year agreement or a five-year agreement with a five-year 
provision for automatic extension.
    Senator DeWine. Thank you. Secretary Beers, is there any 
reason for any optimism in regard to the peace process?
    Mr. Beers. Sir, I----
    Senator DeWine. Is there any good news?
    Mr. Beers. I think that one of the important ways to look 
at this is that this is not a short-term process and that time 
horizons that are shorter than three or five years are 
unrealistic with respect to the resolution. I am not aware of a 
negotiation with an insurgent that took less time than that. I 
think there were enormous expectations that were created when 
President Pastrana was elected. I think we are in for the long, 
slow haul.
    So when you ask, am I optimistic, if you give me the 
privilege of saying, with a longer time horizon, yes, and I 
think that this strategy that the Colombian government has 
presented represents a way to push the parties closer together 
to resolving it, but it is not going to happen quickly.
    Senator DeWine. My time is up. Thank you very much. Thank 
you, Mr. Chairman.
    Chairman Grassley. Senator Sessions.
    Senator Sessions. Thank you very much. This is a very 
troubling thing for me. I got involved as a young Federal 
prosecutor prosecuting cocaine cases in the DEA and others in 
the 1970s, and 12 years as United States Attorney on the Gulf 
Coast and had some appreciation for what was happening. I read 
The Underground Empire and all those books and all that stuff. 
The things that you are saying today, Mr. Beers, Mr. Sheridan, 
were said in this body 15 or 20 years ago. We are making 
progress. We are going to do this. We have got a little 
progress in Peru, 26 percent, 17 percent in Bolivia, reduction. 
But there is an increase in Colombia that more than compensates 
for that and that has been the pattern consistently.
    Now, I am not sure how to deal with it, but I think we have 
got to be honest about what is happening, and we are not going 
to stop the drug problem in the United States by reducing or 
stopping production in Colombia. That is not going to do it. It 
is a component of it, if we can make progress, but it is not 
going to deal with our problem. We have a demand that it will 
be produced somewhere.
    Mr. Sheridan, how much cocaine is consumed in the United 
States in metric tons per year?
    Mr. Sheridan. I would have to defer to General McCaffrey on 
that. My sense is it is probably 300 or 400 tons a year.
    Senator Sessions. Is that including what is seized or 
actually consumed.
    Mr. Sheridan. No. You said consumed in the United States.
    Senator Sessions. Do you mean actually coming in, or 
including that that is seized----
    Mr. Sheridan. I can only give you rough orders of 
magnitude. The best I can recall, the number is about 400 tons 
or so, I think, enter the United States, give or take some, and 
maybe 100 tons are then seized somewhere in the United States, 
and maybe 300 tons are consumed, somewhere along those lines.
    Senator Sessions. So it looks like Colombia will supply the 
biggest part of that next year, with 250 metric tons.
    Mr. Sheridan. Correct.
    Mr. Beers. There is more than enough.
    Senator Sessions. It is a very, very frustrating process 
for me. And you have Colombia producing what percentage of our 
heroin now?
    Mr. Sheridan. I do not know, but it is a growing 
percentage.
    Senator Sessions. Is it not 60 or so percent, I believe, in 
one of the----
    Mr. Sheridan. Well, 60 or 70 percent is of the heroin that 
is actually seized, although I think people would be careful to 
say it does not necessarily reflect what is being consumed. In 
other words, our law enforcement may have a bias towards being 
more effective in seizing Colombian heroin than perhaps some 
out of Southeast Asia or other places. But, clearly, increasing 
amounts of Colombian heroin are being found in the United 
States.
    Senator Sessions. Mr. Sheridan, you said that the DEA is 
not in the counter-insurgency business, and I believe, General 
Wilhelm, you said our military support had been ``exclusively 
on counter-narcotics assistance.''
    General Wilhelm. That is correct. Yes, sir.
    Senator Sessions. It seems to me, if we are going to lobby 
Colombia to do something about producing cocaine, they need to 
be able to do it, and it seems to me they have got to take 
control of their country. I mean, Abraham Lincoln understood 
that. You cannot have a big chunk of your country under Marxist 
revolutionary control and be able to expect the country to be 
able to do anything successfully, particularly when they are 
involved in the narcotics business. That troubles me.
    Is this the policy of the United States, Mr. Beers, and the 
State Department, that we are not going to assist Colombia in 
defeating the guerilla forces that are threatening its ability 
to do what we ask in their own democracy?
    Mr. Beers. Sir, what we are about and what our focus is is 
on counter-narcotics, but that----
    Senator Sessions. My question to you is----
    Mr. Beers. Please, may I finish, sir?
    Senator Sessions. My time is going to run out.
    Mr. Beers. But that area is also insurgent. Where the 
insurgents and the traffickers are together, our assistance 
supports efforts to go after insurgents as well as traffickers 
because there is no difference between insurgents operating in 
those areas. So we will assist in that area.
    The strategy, then, is to deprive the insurgents of their 
resources. There are insurgents there. There are resources 
there. This is an effort to go after the traffickers and the 
insurgents where there is cultivation----
    Senator Sessions. Do you agree with the General that 
Colombia is not going to have any leverage at the negotiating 
table until they start winning militarily some on the 
battlefield?
    Mr. Beers. That is the general view of this government, 
sir.
    Senator Sessions. And does this government have any plans 
to assist a longtime ally of the United States, Colombia, in 
this effort, to defeat the military insurgents that are in 
Colombia?
    Mr. Beers. As I have said, our authorization and our 
strategy is counter-narcotics. It will also effectively reduce 
the capabilities of the insurgents. It is their life blood.
    Senator Sessions. I just think that is a real badproblem.  
I think that my best judgment is that the first thing we need to do is 
help Colombia win this civil war to reassert governmental control over 
their country and then they can begin to make progress, and it seems to 
me it is sort of ironic that the area that the insurgents control is 
the very area where the major cultivation is, is that not true, Mr. 
Sheridan?
    Mr. Sheridan. Yes, and as Secretary Beers said, our 
interests, our policy is very clear of supporting the Colombian 
military, allowing it to operate in the narcotics areas, 
particularly in the Putumayo and the Caqueta. In the course of 
them doing counter-narcotics work, they will end up denying the 
FARC the revenue that the FARC need to engage in their 
insurgency.
    Senator Sessions. I understand the DEA's position. As a 
matter of fact, I think DEA is correct. DEA is not a political-
military organization. It is an anti-drug organization. You 
have to maintain that as your priority. But I am surprised and 
concerned that the policy of our military and our State 
Department and our President is not to provide direct 
assistance, where possible, to help Colombia defeat the Marxist 
guerrillas that are threatening their----
    Mr. Beers. Sir, this is their highest priority.
    Mr. Sheridan. Senator, also, I am speaking for the 
Department of Defense.
    Senator Sessions. Excuse me.
    Mr. Sheridan. I am speaking for Secretary Cohen today and I 
can tell you, I have gotten very clear guidance from him. I 
know where he is.
    Senator Sessions. Enforcement policy, not DEA. I am sorry.
    Mr. Sheridan. Right. He is strongly in favor of supporting 
the Colombian military as it works in the counter-narcotics 
area. We are not interested in a straight counter-insurgency 
support program in Colombia, nor do we have any authorization 
or appropriation of any funds from this Congress for that 
purpose.
    Senator Sessions. But is that the right policy? Who wants 
to answer that? Is that the right policy?
    Mr. Beers. Sir, that is the Colombians' policy.
    General Wilhelm. This is, as much as anything else, an 
operational question. Senator Sessions, that is a good question 
and I think there is a reasonable answer to it. I have never 
seen an insurgency quite like the one that we are observing in 
Colombia right now. It is the only self-sustaining insurgency I 
have ever seen. There is no Cuba in back of it. There is no 
Soviet Union in back of it. It is this delicate marriage of 
criminals, narcotraffickers, with insurgents. So it is kind of 
a one-of-a-kind phenomenon.
    I have always felt that one of the best ways to defeat an 
enemy is not to take him on frontally, because you are going to 
take a heck of a lot of casualties to do that. A much better 
way is to cut his supply lines. The FARC's supply line are the 
revenues that they get from the narcotraffickers, so if we can 
help them defeat the narcotraffickers, dry up their cash flow, 
which is exactly the commodity they use for recruitment, for 
arms purchases, for the adaptive tactics and techniques they 
have undertaken with the propane canisters, the full range of 
activities they are involved in, I think the insurgency will 
die on the vine. To me, this is a good military strategy. Cut 
off their logistics lifeline and let the force die on the vine.
    Senator Sessions. General Wilhelm, all I would say to you 
is, we have been trying to dry up the money going into Colombia 
from cocaine for over 20 years. That has been a goal not 
achieved under any administration, and I am not sure you can 
achieve that. I am not sure that we are going to be able to do 
anything until they are defeated on the battlefield. But I 
guess you have been there, you know, but those are just my 
instincts about where we are. I do hope that we will not be so 
persnickety about not providing aid that will help them 
actually win militarily, and that would help fight narcotics, I 
believe.
    Mr. Chairman, I am sorry. My time is over.
    Chairman Grassley. General Wilhelm, one of our main 
concerns has to be for effective intelligence. General, could 
you characterize your current situation as far as intelligence 
collection is concerned and the resources necessary for that 
and how your resources meet the needs?
    General Wilhelm. Senator Grassley, I am in trouble. In 
December of last year, I categorized our intelligence 
surveillance and reconnaissance capabilities in Southern 
Command at the lowest measured readiness level, C-4. That is 
where we are today. Just to make our plight perhaps a little 
bit more measurable, we requested slightly in excess of 900 
aerial sorties to paint the intelligence picture that we needed 
of these narcotics producing regions. Our fill was less than 
400 sorties, or at about a 44 percent fill rate.
    I need help. I need it badly. I have no tactical assets 
that are dedicated to my theater. The ARL, the airborne 
reconnaissance low, an aircraft, of course, which we tragically 
lost here about a month ago with a crew of five U.S. and two 
Colombians on board, was designed and built for United States 
Southern Command. I do not have a single one of them today, but 
three of them are in Korea.
    I am in urgent need of help on the intelligence, 
surveillance, and reconnaissance side. I think we are on the 
cusp of elevating Colombia to Tier 1 Bravo for intelligence 
collection, which will certainly increase our leverage to get 
assets. But at this moment, that is probably the largest single 
problem that I face, sir, always backwiring into the theater 
architecture. That is why it is so important that the few 
assets that I have be at the right locations, where they can 
give me the densest possible coverage of the most important 
areas. Hence, I keep bringing up the FOL structure and the 
importance of Manta.
    Chairman Grassley. Secretary Sheridan, you have outlined a 
number of different projects that you currently have ongoing in 
Colombia and several of these were funded through Section 1033 
of the DoD appropriation bill. Are there any legislative 
recommendations that you would make to Congress that would 
allow your current projects in Colombia to be conducted more 
effectively?
    Mr. Sheridan. For the moment, Senator, I think we are fine. 
Clearly, the 1033 authority which allows us to buy and transfer 
equipment, something that in the past the Congress had not been 
willing to provide for us, has been a help. It has a cap in any 
one particular year of $20 million. We are bumping up against 
that cap. I think for the moment, we are okay, but as we come 
around perhaps with next year's authorization bill, at that 
point, we may come and ask for that cap to be raised from $20 
million to some higher number. But for the moment, I think we 
have theauthority from Congress to do the things that we are 
being asked to do.
    Chairman Grassley.  Would you suggest how raising the cap, 
if you asked for that to be done, would affect your current 
policy options?
    Mr. Sheridan.  It would not. It would allow us, though, to 
provide more equipment to those riverine forces, which is what 
the authority was intended to do.
    Chairman Grassley.  Then my last question would be to 
Secretary Beers. I do not know whether it is a point or a 
question, but I would ask you to respond either way. You have 
suggested an ongoing policy review. I do not have any argument 
with that.
    But I guess I would have argument with that if it does not 
go beyond policy review, because it seems to me that we have to 
do better than just policy review. If this is a review, can we 
expect to see a policy come out of it? Will we be seeing that 
before we see a wish list of things that we would do if we 
appropriate money? It is already going on in the 
administration, talk about requesting a supplemental for 
Colombia, so would we see something more than just a project 
list or a grab bag of goods and services that it would be used 
for? I said in my opening comment, it seems to me very 
important that we have a policy before we go ahead and make 
these decisions to spend more money.
    Mr. Beers.  Yes, sir. We have been engaging in this review 
and the discussions with the Colombian government for the 
express purpose of having a policy before we came to resource 
decisions. There were some indications of discussions of 
numbers, in part derivative of the Colombian visit up here in 
July with a list of equipment that they were interested in and 
some indications with respect to the Republican Drug Caucus in 
the House and with respect to General McCaffrey's documents 
that were circulated.
    But I can tell you, having participated in the 
deliberations within the administration, that the focus has 
been since mid-July on the development of a clear, 
comprehensive strategy for presentation and discussion with the 
Congress of the United States and that that was the intent of 
the President's response to the Speaker and the Majority Leader 
and that is the intent of the administration, to present you 
all with a policy proposal, folding in the Colombian strategy, 
which has got to be the centerpiece of that. We are not doing 
this by ourselves. We are not doing this alone. Then, if that 
yields issues or implications that have resources, then we will 
look at that in association with the Congress, as is 
appropriate.
    Chairman Grassley.  Thank you. I will call on Senator 
Graham. I, and maybe other members, I, for sure, will have some 
questions that I want to submit for answer in writing, but I do 
not want to prolong this meeting longer than necessary. Senator 
Graham?
    Senator Graham.  Thank you, Mr. Chairman, and I will heed 
your advice and may also submit some questions in writing.
    Let me pursue three issues. One, General Wilhelm, relative 
to intelligence and surveillance capabilities, in April, I 
talked to another one of your Central Command brethren who 
expressed similar concern about intelligence surveillance, but 
he thought that it was episodic, that it was a function of the 
war in the Balkans and that there had been a diversion of 
resources for that purpose. Is your situation an episode or is 
this a systemic problem of adequate intelligence surveillance?
    General Wilhelm.  Senator Graham, it is a little bit of 
both, but I think at Southern Command, it leans a little bit 
more toward the systemic side. We have seen a steady draw-down 
of the resources that are available to this theater and it is 
not only the airborne platforms that everybody competes for. We 
had an intelligence brigade, the 470th, the military 
intelligence brigade that was active in our theater that has 
been stood down. A lot of our ground signals intelligence sites 
have been closed. So it is not just airborne platforms.
    Also, the counter-drug mission, as I know this caucus is 
well aware, the global military forces policy is broken down 
into four increments and counter-drug is number four of four. 
So three other things get filled before ours, and so we suffer 
the kinds of losses that General Zeni talked to you about when 
Bosnia and Kosovo heat up and they draw off these low-density, 
high-demand assets that all the CINCs need. So ours is partly a 
function of world events and partly systemic.
    Senator Graham.  In the budget request that General 
McCaffrey has presented us, does he adequately address the 
issue of intelligence resources for this anti-drug campaign?
    General Wilhelm.  Senator Graham, I have got to be honest 
with you. I will have to go back and take another look at the 
resource outlines that General McCaffrey provided. If I could 
take that for the record, I would like to review that again. I 
know roughly where the money is, but I will need to take a look 
at that, if you do not mind, sir.
    Senator Graham.  Fine. Mr. Beers, in the Colombian plan 
that has just been presented, what does it do in terms of 
internal reform of the Colombian institutions, the military and 
the police, which will carry the bulk of the responsibility? As 
an example, there has been concern that there is a policy in 
Colombia that if you are a high school graduate, you cannot be 
used in combat, and that has substantially reduced the number 
of potential combatants within the Colombian military. Does the 
plan that has recently been submitted deal with that or other 
institutional reforms?
    Mr. Beers.  Let me let Mr. Sheridan answer the military 
portion but take the opportunity to also expand a little bit on 
the judicial side. The plan discusses both. On the judicial 
side, there is a major reform effort that is partially underway 
that would be accelerated as a result of this plan which would 
go after dealing with some general problems with the Colombian 
judicial system as they transition from the Napoleonic code to 
something more like the English system with oral testimony.
    In addition to that, there is a major anti-corruption 
effort that they are planning on undertaking and a general 
policy to deal with human rights abuses across the board, as 
well as efforts to go after assets of traffickers and put them 
back into the public treasury, as well as efforts to disrupt 
and dismantle the trafficking organizations. This is a major 
component of their plan and I appreciate you giving me the 
opportunity to stress that important element.
    Brian.
    Mr. Sheridan.  On the military reform side, as I said in my 
opening comments, former Minister Ureda and then current 
Minister Ramirez and General Tapias have shown us awillingness 
and a recognition of the need to reform the Colombian armed forces, 
which for us is very refreshing and, we think, needed. They have 
already taken some steps. In our recent discussions with them on the 
development of their strategy, they have committed themselves to taking 
more. I would anticipate over the next few months we will work with 
them in helping them develop further ideas for their restructuring and 
reform.
    As I also said earlier, the Colombian military has made 
dramatic progress on human rights. In fact, very recently, we 
just had several senior military officials cashiered on human 
rights grounds. So General Tapias gets it. The leadership gets 
it. Reported human rights violations which are attributed to 
the military by NGOs have plummeted over the last few years. 
They just passed a military judicial reform bill in their 
congress this past summer. So we are seeing real progress in 
those areas and we are seeing progress in their willingness to 
restructure thier military to make them more effective.
    I think General Wilhelm can comment on the bachalarias, 
which is what you referred to.
    General Wilhelm.  Yes, Senator, and I think this may get 
somewhat to some of the points that Senator Sessions was 
referring to as Colombia reaches out and strives to regain 
control of its own territory.
    Colombia has got a big army, about 122,000. They have got a 
big national police force, about 104,000. I go along with 
Senator DeWine's assessment of the overall strength of the 
insurgents, about 20,000. So they have the ten-to-one ratio 
that we commonly refer to that you need to defeat an insurgent 
force, but you need the right army to do that.
    Your point on the bachalarias, Senator Graham, is spot on. 
As best I can determine, though, the number is a little bit 
imprecise. Somewhere between 30,000 and 35,000 members of that 
122,000-man army, by virtue of their education level, were, by 
law, exempted from combat operations. That is the wrong kind of 
army.
    As Brian mentioned, during his tenure, Minister of Defense 
Rodrigo Ureda, before he stood down, developed a personal goal 
of really taking a tight comb to the structure of the armed 
forces and his goal was to move 15,000 troops per year out of 
these non-productive capacities, this distorted tooth-to-tail 
ratio, and put them out in the interior where they were needed 
to wrest control of the countryside from the insurgents. He 
viewed that as a three-year proposition, which, if carried 
through, obviously, to completion, would put 45,000 more troops 
with their fingers on triggers instead of their feet on 
overpasses.
    So this is very, very much a part of the reform and 
restructuring efforts that are underway in Colombia right now, 
and Minister Ureda's vision has been adopted by Minister 
Ramirez, the new Minister of Defense.
    Senator Graham.  My time is up, but I will submit a written 
question which will basically ask what does the United States 
military, after its long association with the Colombian 
military, consider to be the most urgent reforms for the 
Colombian military to reach the level of efficiency to be able 
to carry out the mission that it has committed to? Second, to 
what degree does the plan that was submitted this week meet 
those diagnosed needs? And third, is there any U.S. role in 
seeing that those prescriptions are effectively applied?
    Chairman Grassley.  Thank you, Senator Graham.
    Senator DeWine.
    Senator DeWine.  Thank you, Mr. Chairman. General, you 
make, I think, a very compelling and very good point, a very 
interesting point, when you talk about SOUTHCOM's intelligence 
assets, that they have been depleted to support ongoing 
missions in other parts of the world. It seems to me, and this 
is a comment and you can comment on it if you would like, or if 
you want to pass, that is fine, it seems to me that this is the 
world we live in today and that we face a lack of depth in 
regard to these assets.
    Maybe as we look at where we go into the next century, we 
need to be beefing these assets up, because it seems to me they 
are always going to be needed somewhere in the world. There is 
going to be some crisis or someplace where they are needed, and 
if we are serious about having any of these assets available or 
significant assets available or enough assets available for 
anti-drug efforts, that we probably need to add to the depth of 
these and we need to look at this from a long-term point of 
view. Do you want to comment on that or not?
    General Wilhelm.  Senator, I think if--well, I will be bold 
enough to speak, because I talk with them all the time, with a 
number of my fellow CINCs. I think they all feel the pinch of 
these assets that we call low-density, high-demand, and we 
would like to see the pool of resources deepened.
    The examples are many. One of the examples that comes to 
mind that is not part and parcel of my normal theater business 
is the aged EA-6B, our sole remaining electronic combat 
aircraft, which really needs to precede every tactical strike 
force, and that is a hard-pressed asset.
    We look at Rivet Joint. I have Senior Scout, the aircraft 
that really paint the battlefield picture for us. These are 
assets that I think we all have a compelling need for and they 
do not necessarily always correlate precisely to what we need 
to fight a major regional contingency. It is the rest of the 
world that we have to address, developing regions, places where 
we are performing some of these less traditional missions.
    So, yes, sir, I think we are probably all in agreement on 
that, and I believe that there are some fairly purposeful steps 
underway to try to deepen the asset pool so that we can better 
meet the CINCs' requirements for these assets.
    Senator DeWine.  Let me address a question to any of the 
members of the panel who would like to respond to it. Some of 
you have already touched upon this, but I want to talk a little 
bit about the regional threat that this ongoing crisis in 
Colombia poses. The FARC constantly infiltrates the Darien 
Province, for example, in Panama. It just goes on and on nad 
on. They may be responsible for recent kidnappings inside 
Ecuador. Another example, the head of the Colombian 
paramilitaries has threatened Panama and Venezuela.
    How would you describe for the American people the 
significance of what is going on in Colombia, besides the drug 
problem and its impact on the United States and besides its 
impact on Colombia? What is its impact on the region, 
potentially?
    Mr. Beers.  I will take a start, but I think that all my 
colleagues are probably going to want to contribute to that 
question. Sir, I think you have painted an accurate picture of 
the concerns that we all share, which is that, without making 
too big an issue about how this might expand,you have painted 
three adjacent countries who currently are experiencing some 
dislocations or problems that stem directly from the uncertainty and 
instability that is occurring in certain areas in Colombia. That is 
part of the reason the government wants to do something about it, and 
from our own national security perspective, with respect to drug 
trafficking and democratic stability in the region, why we would like 
to do something about it.
    It is an issue that requires focus and discipline in terms 
of how we think about the problem and how we approach it and 
the kinds of resources and strategies that we put against it. 
We do not have any magic solutions, but it is pretty clear to 
all of us that we are going to have to deal with these problems 
in the adjacent areas just as much as we are going to have to 
deal with the problems that directly affect us in Colombia.
    Mr. Sheridan. I would just say, Senator, that trying to 
characterize the regional impact in some ways is similar to 
trying to characterize the internal situation, where the 
difficulty for people working the problem is in trying to 
strike the right balance and understanding what is going on, 
because it is very complicated.
    On the one hand, I think there is a recognition--the FARC 
have been around since 1966. There has been a recent spate of 
press coverage. I think some people pick up the newspaper and 
they say, my God, what is going on in Colombia today? It is 
going to fall apart tomorrow. That is one extreme. But the 
other extreme, I think equally dangerous, is for the long-time 
Colombia watchers who say, do not worry about it. This has been 
going on for so long.
    We are kind of trying to understand and look at the 
situation and understand what is the degree of the slope here. 
From my perspective, when you talk to the intelligence people 
and look at the longer-term trends, what you see is that the 
FARC today is bigger than it has ever been. It operates in more 
provinces than it has ever operated in before. It conducts more 
complicated military operations than it has ever conducted 
before. But then there is the day-in/day-out tactical victories 
and tactical defeats.
    So from my perspective, Bogota is not threatened tomorrow, 
but on the other hand, there is clearly something going on with 
the growing capabilities of the FARC. When you look at it 
regionally, the FARC have been using the Darien Province as an 
R&R location for years and years. I remember when I first came 
to this job about 6\1/2\ years ago, in one day, the FARC wiped 
out a whole Ecuadorian riverine unit. So they have been using 
northern Ecuador and have been familiar with that for quite a 
while.
    So, again, it is trying to understand what is new here and 
what has been going on for quite a while, but I would say, as 
the situation in Colombia goes, so will go the regional threat, 
and clearly, I think, the neighboring countries, it is 
appropriate for them to focus on their border areas. Virtually 
all of them are very inaccessible jungle areas, extremely hard 
for those governments to get at, and in many cases, there is 
not a whole lot going on out there except for jungles and 
guerrillas.
    Senator DeWine. General.
    General Wilhelm. Sir, as you would appreciate, I spend a 
lot of time with the militaries from the five nations that do 
border Colombia and it has been very interesting over the last 
24 months. When I go to Caracas, Venezuela, right now, the 
topic of greatest interest is Colombia. Ditto, Brazil. I was in 
Brasilia about two weeks ago.
    I refer to it as a spreading stain. I think the sensitivity 
of the surrounding countries to the situation in Colombia has 
changed. It has intensified. Just sort of anecdotally, looking 
very, very quickly at what is happening in the region on any 
given day, Venezuela will have about 10,000 troops along the 
Putumayo River, which establishes its border with Colombia. It 
is very interesting. I have visited most of the outposts. About 
80 percent of the people living on the Venezuelan side of the 
river are Colombians, so it is a displaced population.
    Peru and Ecuador for a considerable period of time were 
really denied much of an opportunity to do much about the 
situation on their border because they were fixated on each 
other. With the signing of the peace accords in Brasilia in 
October of last year, both countries are now concentrating 
their military forces near the border to limit incursions 
there.
    Brazil is very important. For a long time, I think Brazil 
was essentially in kind of a denial mode. That is certainly not 
what I see at all in Brasilia now. A laboratory was destroyed 
on the Brazilian side of the border, which I believe had an 
annual output capacity of about ten metric tons. That is big 
drug business. Brazil is investing $1.4 billion in the Amazon 
surveillance system so that they can get a series of both 
airborne, ground, fixed, and mobile radars and sensors to 
better control and surveil the Amazonis Province, which is very 
important to them.
    Brian did a good job of describing the situation in the 
Darien Province of southern Panama. Panama, of course, with no 
military after Just Cause, really is left with public forces 
which are not configured to deal with the kind of threats that 
the violations of sovereignty posed by the FARC present to 
them.
    So it affects each and every one of the surrounding nations 
to some extent in varying and differing ways, but the concern 
level, I will tell you, sir, is up significantly.
    Senator DeWine. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Grassley. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I did notice in 
the recent New York Times article that despite their early 
hopes for Pastrana, however, U.S. officials generally described 
his efforts to negotiate with the guerrillas as a failure that 
has left the insurgents stronger and more defined. Without 
going into too much detail, I think you have agreed that the 
insurgents are stronger and this negotiation may not have been 
helpful.
    General Wilhelm, is it not true, when you are asking an 
infantry company to get out and put their life on the line to 
confront a military force, that they need to know that the 
leadership is committed to victory and that it can undermine 
the effectiveness of any unit if the leadership at the top is 
not perceived as committed?
    General Wilhelm. Senator Sessions, you could not be more 
correct. We have events in the last 30 years in our own 
history, I think, that bear that out completely. You have just 
expressed a sentiment that, quite frankly, was alive and well 
in Colombia fairly recently.
    I can remember very, very well talking to an old friend 
shortly after I took command of Southern Command, a general--
name is not important--in the Colombian armed forces, and he 
said, do you know what our problem is? And I said, what is 
that? He said, the army is at war and the country is not.
    I think a lot of that is changing, sir, and I think a lot 
of it is changing because of the activities of the FARC. It is 
hard to ignore the kidnapping of an entire church congregation 
in Cali. It is hard to ignore the hijacking of an Avianca 
airliner. It is hard to ignore the kidnapping of three U.S. 
nationals and then transporting them across a river and 
shooting them in the back of the head.
    I think the reality of this struggle is settling in on the 
Colombian population at large and I detect a spirit in the 
armed forces that this is a shared enterprise. They believe 
that the president is with them. I think they believe that the 
national leadership is with them.
    So I have seen some changes over the last 24 months, sir, 
and maybe they will not produce results tomorrow, but looking 
to the longer term, I think they probably will. I think we will 
see a mobilization of national will, but I think the 
mobilization of national will will also be tied to an increase 
in national confidence. That is why I drew some optimism from 
the performance of the military during the July offensive and I 
hope they can sustain that kind of performance.
    Senator Sessions. I recall one time that Henry Kissinger 
said that nothing clears the mind so well as the absence of 
alternatives, and I just do not see how Colombia has an 
alternative. They have got to get themselves together and they 
have got to put forth a military force that is effective and do 
something about the drugs in the process. While I would tend to 
agree that it would be very damaging to the narco-rebels if we 
could reduce their money, historically, I am not sure that is 
going to be happening. I think it is going to be almost 
together, the military and anti-narcotics, to defeat them.
    It would seem to me difficult, as you have described this 
group more as outlaws, extortionists, not your traditional 
groups, it would be even harder to negotiate with a group like 
that, to justify negotiating with a group like that. If you 
were dealing with a group of ethnic people who wanted more 
autonomy for their region, that is one thing. But if we are 
dealing with nothing more than people with a Marxist history 
and a narcotics agenda, it seems to me even more difficult.
    So I would encourage the people of Colombia to come 
together effectively and do that. Can we help without becoming 
involved, General Wilhelm? Can we help, effectively, their 
military to strengthen itself?
    General Wilhelm. Senator Sessions, I think we can, and 
honestly, sir, I think we are. Right today in Tolomida, 
Colombia, there are 621 troops in training right now. This is 
the last increment of this counter-drug battalion that we 
started building last April. We trained 317 troops in the first 
increment, 621 now. So this is a battalion that is a third 
again the size of the traditional Colombian army battalion.
    It has got organic indirect fire capabilities, organic 
reconnaissance, it has got an organic medical capability, it 
has got civil affairs capability, psychological operations 
capability. In simple terms, it is a full-up round. It has been 
designed from the ground floor to work effectively with the 
Colombian national police and we are helping with this unit, 
sir, because it is focused on the counter-drug mission.
    The Colombian army is not sitting on its hands. They have 
other organizations, counter-insurgency or counter-guerilla 
battalions, which they have trained on their own hook.
    My thought, and I think I am correct, is that once the 
Colombian military leadership has the opportunity to observe 
this first CD battalion in operation--and sir, they have 
already told me, next year, we want to expand this to a CD 
brigade--I think we are going to have helped them create the 
prototype around which they will redesign the rest of their 
armed forces. Again, the dedicated counter-insurgency force, 
internal problem to Colombia, is theirs to contend with. We are 
providing the training, equipment, and monetary support to 
build the CD battalion. But I think a lot of what we are doing 
is going to find transferrence to the rest of the force.
    Senator Sessions. Mr. Beers, I have only been in this body 
a little over two-and-a-half years, so I do not pretend to 
understand the ways of all our government, particularly the 
State Department, but is there some line here we are talking 
about? If we assist the military beyond just counter-narcotics, 
is that some sort of line we have crossed that makes us 
nervous?
    Mr. Beers. Sir, with respect to the authorities of the 
bureau that I am in charge of, we have authorities that are 
counter-narcotics and that is what I do and I do not do 
counter-insurgency. But the Department as a whole has come to 
this conclusion. That is an internal issue for the government 
of Colombia. We will help them on the counter-narcotics side, 
including where it extends to the FARC who are acting as 
narcotraffickers. But, yes, sir, as a policy perspective, we 
are not of the view that we should involve ourselves directly 
in the insurgency. So it is a policy decision.
    Senator Sessions. I certainly do not want to have American 
troops in Colombia now fighting a war, but I think, to me, 
counter-narcotics and counter-guerilla is one in the same and 
if we can provide, sell, supply the kind of hardware or 
training that they need that could help them win this war, we 
would all be better off. It is troubling, and I think there is 
uniform agreement--you can tell it from the nations around 
Colombia--we are worried right now. Things may not be falling 
apart in a total disaster. It is not a time to panic, but it is 
time to be concerned. Ultimately, I believe this matter will be 
decided on the battlefield. Thank you, Mr. Chairman.
    Chairman Grassley. I hope we can look back at this period 
of time and Congressional and administrative deliberation of 
this issue as it relates to Colombia and the President 
Pastrana's coming to this country as a point in time when some 
policy changes and efforts on our part have pointed to a 
dramatic change in the situation in Colombia and the export of 
cocaine and other illegal drugs to our country.
    Before I dismiss you, I would like to make a point, Mr. 
Beers and Mr. Sheridan. As you are aware, and I did give a 
speech on this on the floor of the Senate a few weeks ago, I 
have repeatedly asked the administration for a detailed 
planabout the helicopters that are in Mexico. The whole helicopter 
issue in Mexico has been a great embarrassment and the lack of a plan 
seems to deepen that embarrassment. I am going to ask one last time, 
and not ask you to comment now but just to get a plan up here on how 
these helicopters are to be used, and I hope that we could have that 
within a couple of weeks.
    In regard to this hearing, this has been a very worthwhile 
discussion with you three leaders in this area. We thank you 
very much for taking time out of your busy schedule to be here 
with us and to follow up with us on the questions that this 
panel will submit in writing. As I have indicated, I hope that 
the things that have been expressed here by all of you, both 
what is hoped for in the future as well as what you see 
developing now, makes a significant difference and a follow-
through will help with that. Thank you all very much.
    Mr. Beers. Thank you.
    Mr. Sheridan. Thank you.
    General Wilhelm. Thank you.
    Chairman Grassley. Our next panel and last panel consists 
of Bernard Aronson and Michael Shifter.
    Mr. Aronson is Chairman of ACON Investments and New Bridge 
Andean Partners here in Washington. He was Assistant Secretary 
of State for Inter-American Affairs from 1989 to 1993 and was 
the principal coordinator of U.S. foreign policy and the 
principal foreign policy advisor to the President and Secretary 
of State on relations with Latin America and the Caribbean 
Basin.
    Michael Shifter is currently a senior fellow for the Inter-
American Dialogue here in Washington. There, he develops and 
implements strategies in the area of democratic development and 
human rights. He served previously as Director of Latin 
American and Caribbean Programs at the National Endowment for 
Democracy and the Ford Foundation's Governance and Human Rights 
Program in South America.
    I thank you both for being present for this meeting and 
discussion and for your contribution in advance. I will start 
with you, Mr. Aronson.

 STATEMENT OF BERNARD ARONSON, CHAIRMAN, ACON INVESTMENTS, AND 
 FORMER ASSISTANT SECRETARY OF STATE FOR INTER-AMERICAN AFFAIRS

    Mr. Aronson. Thank you very much, Mr. Chairman. In the 
interest of time, I will submit my statement for the record and 
try to summarize it.
    First of all, Mr. Chairman, I want to thank you and Senator 
Graham and other members of the caucus for inviting us, but 
more importantly, for holding this hearing. We usually get in 
trouble in Latin America because we fail to pay attention to 
problems there until they become crises and then we seek to do 
something about it, and usually the policy choices we face are 
narrow and difficult. So I think this hearing is very timely 
and I think, to some extent, we have done that with regard to 
Colombia as a country, both the administration and Congress, 
but it is not too late, so it is important that we pay 
attention.
    I guess the only other point I would make, and this is sort 
of an old mantra with me, is that I would make an appeal to you 
and your colleagues to try to maintain what this hearing has 
shown, which is a bipartisan approach to this policy, because 
when an issue in Latin America becomes polarized along partisan 
lines, we just undermine the effectiveness of the United 
States. We should have learned that lesson in Central America. 
When we came together in 1989 around a bipartisan policy, we 
were able to end the war in El Salvador, to democratize 
Nicaragua, set the stage for a peace process in Guatemala.
    Your focus in the narcotics threat, but I think, as has 
been evident in this discussion, you cannot separate the issue 
of counter-narcotics from the issue of the war and the larger 
crisis in Colombia, and that crisis involves many, many issues. 
It involves corruption. It involves vast areas of the Colombian 
state in which the government has no presence. It involves 
civil insurgencies whose roots go far beyond the drug trade and 
have deep social and political background that we need to 
understand.
    I guess one point I would make to the Congress and to this 
caucus is if we are going to help Colombians resolve these 
problems, we are going to have to stay the course and remain 
engaged for many years, over many administrations, and over 
many Congresses.
    Some of this testimony sounds very familiar to me. I was up 
here on this side ten years ago saying some of the same things. 
Senator Graham was involved in the first Andean strategy and 
one of the things that troubles me is that we tend to charge up 
the hill and then back down again when we do not solve our 
problems quickly. If you look at the funding for counter-
narcotics in the Andean region, we ramped it up in 1990, 1991, 
1992, and then it ramped back down again. Now we are going to 
ramp it back up.
    But these problems are not going to be solved in a budget 
or Congressional cycle and we are going to have to develop a 
long-term strategy that hopefully has a bipartisan underpinning 
and then stay the course and show some patience, which we are 
not always so good as Americans in doing.
    With regard to the specific issues that you are discussing, 
let me make a few recommendations, and I will try to be brief. 
First of all, all those who said that we must help the 
Colombian state strengthen its authority and capacity to defend 
the rule of law are correct, but the first underpinning of that 
is to help Colombia economically. Historically, this is the 
best managed economy in Latin America. This is the only economy 
in Latin America or South America that did not have to 
renegotiate its debt during the debt crisis. This country had 
50 years of straight real growth, a very productive 
entrepreneurial class and hard working people.
    But today, it is in the deepest recession of its modern 
history. There is huge unemployment. Capital is fleeing. They 
have had to devalue their currency twice. Most of that is not 
of the making of this government. They inherited a mess from 
the Samper government, which deliberately spent money to buy 
political support. They suffered the spilloverof the Asian 
crisis, the Russian default, the Brazilian crisis. Coffee prices are at 
an historic low.
    The economic team that President Pastrana has in place is a 
very good team. They have done a lot of the right things as far 
as reform, but they need some support. So I would urge the 
caucus and the Congress to join with the administration in 
signaling to the IMF and the World Bank and the IDB that this 
is a country that needs support now. They are assembling a 
support package with the IMF as we speak. I think they have 
earned it, but I think it would be very helpful if Congress 
sent those institutions a message that now is the time to help 
Colombia economically.
    A second signal that I think would be very helpful to 
Colombia, particularly to the business class, which is taking 
its sons and daughters out and its capital out and is leaving 
the country, would be to join with the administration in a 
bipartisan manner and signal that the Congress is prepared to 
renew the Andean trade preference initiative. As you remember--
I think both of you were here at the time if my memory serves 
me--we passed that legislation in 1991 specifically to help 
these countries fight the drug trade and to give them economic 
alternatives as they made war on the coca production and heroin 
production. It has been very important to Colombia. It is going 
to expire in the year 2001 and it would send a very good signal 
of confidence to the Colombian people and nation if we could 
get our act together early enough to start renewing that and it 
would be very nice if President Pastrana could deliver that 
news.
    Secondly, I hope we do not become polarized in a debate 
over whether we should support negotiations or help Colombians 
fight the war better and give their army support. We need to do 
both. I think the United States should make it clear that we 
unequivocally support a negotiated solution to this war if it 
is possible. That is what the vast majority of Colombians want 
and I believe at the end of the day that will be how this war 
will end, not necessarily immediately, and we should make it 
clear that the door to negotiations is open as far as the 
United States is concerned.
    If the guerrillas have legitimate political, social, 
economic, and other issues, which they do, then they should be 
put on the table. But if they do not negotiate seriously, if 
they use violence, extortion, terror, kidnapping to make war in 
Colombian society, then the United States and the democratic 
community will help Colombia defend itself.
    Therefore, I think we need what we have been talking about 
today, which is a long-term program to help the Colombian armed 
forces modernize itself. And again, I would strongly urge that 
we take a long view. This is not going to happen in a budget 
cycle. It is going to have to be over many years and many 
Congresses and many budget cycles, and the worst thing we could 
do to Colombia is to ramp up a program and raise expectations 
and then lose interest or lose will and change our mind and 
then go back and cut the legs out from under them. We have done 
that in the past. I hope we do not repeat that mistake.
    I think that we must make it clear that that commitment to 
help Colombia modernize its armed forces is conditioned on 
strict human rights standards. They must continue, as President 
Pastrana has done with great courage, to root out officers who 
are abusers of human rights or tolerate that from the armed 
forces and have to do something about the paramilitaries.
    The paramilitaries are part of the problem in Colombia, not 
part of the solution. Three-quarters of the human rights abuses 
are attributed to them. They murder priests. They murder 
journalists. They murder human rights workers. And they carry 
out a scorched earth policy in guerilla territory to just kill 
anybody who is suspected of being a sympathizer.
    Now, in the short run, that does drive the guerrillas out 
of the territory. It has also produced more than a million 
internal refugees in this country, and where they go is 
straight into the arms of the FARC and the ELN and the 
paramilitaries are a very good recruiting tool for the 
guerrillas. So I think we need to strictly condition our long-
term support for the armed forces on human rights standards, 
and particularly doing something about the paramilitaries.
    Fourth, it is good that the United States Government is 
paying attention to this country in a serious way, but we 
cannot be the sole source of support. We need to rally and 
mobilize an international coalition of democratic nations, 
multilateral institutions, and nongovernmental organizations to 
support Colombia. That should include the democratic nations of 
Latin America, Canada, Europe, Japan. It should include the 
United Nations and the OAS. It should include the multilateral 
development banks. It should include nongovernmental 
organizations. They need to support Colombia in the peace 
process, to talk to all the parties, just as we did vis-a-vis 
El Salvador. They also need to be mobilized to help this 
country defend itself should negotiations fail.
    We cannot do this alone, nor should we. Britain has deep 
economic interests in this country through British Petroleum. 
All of the European countries have cocaine and heroin imports 
that originate in Colombia. We need to do more to bring other 
nations into this effort and Colombia needs more support from 
other nations, as well.
    Fifth, and this is probably not a popular thing to say, but 
I learned something from the process in El Salvador. I think we 
should continue to keep channels open and talk to the 
guerrillas. They are everything that was said about them in 
this hearing. They are not boy scouts. The guerrillas started 
out in this process 40 years ago at a time of political 
struggle in this country. It had nothing to do with drugs. They 
have taken advantage of the drug trade, there is no question 
about that. They are complicit in the drug trade, there is no 
question about that.
    But we and others have to bring these guerrillas out of the 
world in which they are living, which is 50 years old, into the 
modern world and begin to find ways to pressure, entice, 
cajole, and talk to them and get them into the bargaining 
process. We did that with the FMLN at a time when it was very 
risky. It was not popular. It made a difference in El Salvador. 
It was not popular to talk to the PLO when we started to do so, 
but today, they are part of the peace process. It was not 
popular to talk to the IRA, but they are part of the peace 
process.
    We need to do that particularly as we gear up this effort, 
because the FARC believes the United States is going to war 
with it and half of Colombia and half of Latin America think we 
are going to intervene. I think it isimportant that they 
understand why we are doing what we are doing. We are doing what we are 
doing because they do not negotiate seriously and because they are 
complicit in the drug trade. But they also ought to understand, as we 
demonstrate in El Salvador, that if their agenda is real political, 
social, economic reform, that the United States can be an ally, because 
we are at risk in this country and we have lots of targets there and 
this guerilla group is very capable of making life very, very difficult 
for Americans.
    A corollary to that is that I would urge that as we gear 
up, that we limit the on-the-ground involvement of American 
forces to the minimum necessary to aid and train and provide 
intelligence to the armed forces, as we did in El Salvador. I 
do not think we should be a big target here and I think we 
should make it clear that this is a Colombian effort and the 
United States is there to provide support.
    A final point is I think we need to be clear about the 
relationship between the guerrillas and the narcotraffickers 
and not be confused about this. There is no question that the 
guerrillas sustain themselves through narcotrafficking activity 
and also extortion from the pipelines, the ELN does, and that 
in some cases, they are directly involved in the trade. But the 
cartels and the mafias that run the drug trade in Colombia are 
not the ELN and the FARC.
    In many ways, the traffickers benefit from the war. The war 
undermines the strength of the government. It diverts the army 
and the police. It saps the legitimacy of Colombian 
institutions. The war is the sea in which the traffickers swim 
and the best blow we could strike against the narcotraffickers 
is to bring the war to an end.
    Now, it may be the case, and it probably is the case, that 
until the guerrillas understand that the option on the 
battlefield is not open to them, they may not negotiate 
seriously. I understand that in these kind of conflicts, the 
correlation of forces on the battlefield has a lot to do with 
progress at the negotiating table. But it ought to be our 
national goal to help end this war ultimately through 
negotiations, and our modernization of the armed forces should 
be a tool to pursue that. We should not kid ourselves. The FARC 
and the ELN could disappear tomorrow. We would still have home-
grown Colombian cartels and mafias running cocaine and heroin 
into this country.
    The last point is really the point that I began with, is we 
need to stay the course and take the long view. This problem is 
not going to be solved in a few months or even a few years, 
probably, and we have to be willing to sustain our support to 
Colombia in the right way, not take over thier responsibility, 
but to do what we can and to mobilize others.
    I am not a pessimist about this country. This country has 
enormous strengths and resources and its people have shown 
great courage in taking on the traffickers and the guerrillas 
and the paramilitaries, but they are in deep trouble today and 
it is spreading into the region. It is now a regional crisis 
and we need to pay serious attention as a country to it because 
we have deep interests in it. I would just note, among our 
interests beyond narcotrafficking, Venezuela, which is a 
neighbor, where the war is already spilling over, where you 
also have a lot of political instability, is the number one oil 
supplier to the United States today. So we have lots of deep 
interest in this country. We trade more with Colombia in one 
week than we do with every country in the former Yugoslavia in 
an entire year.
    So I think that we need to work with the administration, 
hopefully in a bipartisan way, to develop a long-term strategy 
that deals with all of the aspects of this crisis. Thank you, 
Senator.
    Chairman Grassley. Thank you, Mr. Aronson.
    [The prepared statement of Mr. Aronson follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.040
    
    [GRAPHIC] [TIFF OMITTED] T0923.041
    
    [GRAPHIC] [TIFF OMITTED] T0923.042
    
    [GRAPHIC] [TIFF OMITTED] T0923.043
    
    [GRAPHIC] [TIFF OMITTED] T0923.044
    
    [GRAPHIC] [TIFF OMITTED] T0923.045
    
    Chairman Grassley. Now, Mr. Shifter.

  STATEMENT OF MICHAEL SHIFTER, SENIOR FELLOW, INTER-AMERICAN 
                            DIALOGUE

    Mr. Shifter. Thank you very much, Mr. Chairman. Let me also 
commend you and the caucus for holding this hearing on 
Colombia. I think it is extremely important to have a public 
discussion and debate on this critical policy question.
    I am going to submit my testimony for the record and just 
make some brief comments, if I might.
    Let me start with the question of what I think the purpose 
we want to achieve in Colombia is. The objective, to me, seems 
clear, or should be clear. We should do whatever we can to 
strengthen the Colombian government's authority, capacity, and 
effectiveness. It is clear that all of the problems that 
Colombia is dealing with today can be attributed to the 
weakness of the government and the state, whether we are 
talking about human rights abuses, drug trafficking, 
paramilitary operations, or political violence, can be traced 
back to a weak authority and a weak state.
    The responsibility to strengthen the authority of the state 
and the government, Colombians have primary responsibility, but 
we can be helpful. We can support their efforts to reach a 
political solution to the deep internal conflict that has been 
going on for many years. We couldalso do another thing. The 
Colombian government will need a consensus within its own country to 
back and support any plan or strategy. We can help and encourage 
different political forces and sectors--we have a lot of contacts in 
Colombia--to get behind the Colombian government in a solid support for 
its plan.
    Pursuing this call, supporting the government makes 
Colombia a better partner with us in dealing with the problems 
that we share, narcotics being one of several. But Colombia 
will only be a good partner, only be effective in working with 
us if the government can reestablish and regain authority and 
greater effectiveness. We cannot be indifferent to Colombia and 
we cannot disengage from Colombia.
    The second point has to do with U.S. policy, and here, Mr. 
Aronson, I agree entirely that a bipartisan policy is 
absolutely essential. Too often in the past, we have dealt with 
different individuals in the Colombian government, whether it 
be in the armed forces or the police. They may be very 
dedicated, very committed, but that does not help strengthen 
our primary objective, which is enhancing government authority. 
We need to deal more with the elected, legitimate head of state 
of Colombia, President Pastrana. That will be the best thing to 
do to enhance that objective.
    The third point is that it is critical to have a wide-
ranging, comprehensive approach towards Colombia. The peace 
process, the drug question, severe economic crisis, and the 
profound social problems that Colombia faces are connected to 
one another and need to be addressed together, not separately. 
That is also the best way we can strengthen the authority and 
the effectiveness of the Colombian government.
    All of these problems are interrelated and Colombia already 
has a process underway to try to bring an end to its guerilla 
conflict and to reconcile the forces in conflict. Their 
strategy, their plan involves a wide-ranging approach and that 
is the only way that we can be helpful in strengthening the 
capacity to move forward and make progress.
    Clearly, over the last year, there have been tremendous 
problems, set-backs, frustrations, and disappointments. The 
last year has not gone as well as many of us had hoped and 
President Pastrana himself acknowledges that. But there are 
three points, I think, to bear in mind in this connection.
    First, despite the tremendous discouragement on the part of 
Colombians, most Colombians continue to favor the objective of 
trying to reach a negotiated settlement and some sort of 
solution, political solution, to the internal conflict.
    The second point is that the United States is perhaps 
uniquely positioned because of its capacity, because of its 
resources, to be helpful in the Colombian situation.
    The third point is that the other options do not look very 
good. Many sustain that it would be very, very difficult, if 
not impossible, to defeat the FARC militarily, that it would 
cost a tremendous amount that we would not be prepared to 
commit in terms of resources and time, financial resources and 
American lives. So to pursue a strategy that focuses on 
defeating through military means, through the use of force, the 
FARC, in my judgment, would be misguided and could only make 
matters worse, including fueling a civil war and a dirty war in 
Colombia, which already exists but could very well get worse.
    It seems to me we want to avoid that narrow, single-minded 
approach. Even though it is understandable that the perception 
is that guerrillas and narcotraffickers are one in the same, I 
agree with Mr. Aronson it is important to keep that 
distinction. But if we confuse that, then we can go down the 
path that I think could aggravate an already very critical and 
serious situation.
    The final point, again underscoring what Mr. Aronson said, 
is that the United States should play a role, a diplomatic 
role, on the regional and international stage with respect to 
Colombia. There are wider regional concerns. There are concerns 
of instability in neighboring countries. There is great concern 
in countries in Latin America about Colombia and about the 
spreading violence and instability. There is also good will to 
help and be supportive and the United States, I think, can play 
an important role in trying to make a collective, constructive 
response from the heads of government in neighboring countries.
    There is clearly going to be some instrument as this 
process moves forward that is viable and that tries to sustain 
and support internationally externally this process in 
Colombia, whether that is the U.N. or whether that is a group 
of friends or the Organization of American States. Clearly, 
some mechanism, some instrument will emerge, and I think the 
United States should be supportive of that instrument in trying 
to advance Colombia's objective.
    In short, this instrument would serve the purpose of 
supporting, strengthening the Colombian government's authority 
and capacity. That goal is in the interest of all Colombians, 
it is in the interest of Colombia's neighbors, and it is the 
interest of the international community, as well, and I think 
it best serves our interests and our goals and I think we 
should give it the support we can. Thank you.
    Chairman Grassley. Thank you, Mr. Shifter.
    [The prepared statement of Mr. Shifter follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.046
    
    [GRAPHIC] [TIFF OMITTED] T0923.047
    
    [GRAPHIC] [TIFF OMITTED] T0923.048
    
    [GRAPHIC] [TIFF OMITTED] T0923.049
    
    [GRAPHIC] [TIFF OMITTED] T0923.050
    
    [GRAPHIC] [TIFF OMITTED] T0923.051
    
    [GRAPHIC] [TIFF OMITTED] T0923.052
    
    [GRAPHIC] [TIFF OMITTED] T0923.053
    
    [GRAPHIC] [TIFF OMITTED] T0923.054
    
    [GRAPHIC] [TIFF OMITTED] T0923.055
    
    [GRAPHIC] [TIFF OMITTED] T0923.056
    
    Chairman Grassley. I will start with Mr. Aronson. Ten years 
ago, you were Assistant Secretary of State for Inter-American 
Affairs. Could you havepredicted the path that Colombia has 
taken, and if so, what could have been done to prevent it?
    Mr. Aronson. That is a good question, Mr. Chairman. I did 
not predict the path that Colombia was going to take, 
unfortunately. I think that, in retrospect, we focused too much 
on counter-narcotics to the exclusion of other issues in that 
country and the fundamental weakness of its democratic 
institutions and the huge gap between the state and large parts 
of the country where campecinos and rural people live.
    Where the FARC operates and has operated for decades is 
really a place where there is no government. They are the 
government. They enforce the law, as they see it. They enforce 
justice, as they see it--it is pretty brutal. They collect 
taxes. There is no government.
    I think that the Colombian elite and maybe the United 
States, to some extent, just thought that, somehow, this 
problem could be ignored and you could have a democratic 
society with its pocket of violence.
    But having said that, conditions also changed, Mr. 
Chairman. I think the previous Colombian government, which was 
led by Ernesto Samper, who himself was complicit intaking 
narcotrafficking money, did enormous damage to this country. I think 
they enormously weakened the Colombian state--morally, politically, 
economically, and every other way--and we also, unfortunately, and I do 
not disagree with the decision, but by decertifying Colombia on 
legitimate grounds, we also isolated it at a time. Then you had an 
international financial crisis on top of that. So Pastrana inherited a 
huge crisis.
    Secondly, part of the problem in Colombia is the success in 
Peru and Bolivia. It used to be that you did not grow coca leaf 
in Colombia. They were the value-added chain of the production 
and they did the processing and turned it into HCl. But because 
the coca leaf is not being grown in Peru and Bolivia because of 
the success of counter-narcotics efforts there, it is moving 
into Colombia and the guerrillas have taken advantage of that 
and profit from that and have become much stronger.
    I think that we should have probably focused more on the 
political and economic and social issues of the country, and 
that is really part of my message today, which is those are 
part of this problem and part of this war that have to be 
addressed. I am not trying to be naive that these guerrillas 
are just boy scout reformers. They are not. But there are deep 
political roots to this issue that have to be faced if this 
country is going to end the war.
    Chairman Grassley. General McCaffrey has suggested $500 
million to Colombia. Is this too little too late or too much 
too soon? Were there warning signs that were ignored?
    Mr. Aronson. I think, as a country, and as I tried to say, 
I think we are awfully late in facing the crisis in Colombia. 
If you looked just a few years ago, you saw the guerrillas just 
rolling over the armed forces. I mean, there were some horrible 
defeats, including their rapid reaction battalions were just 
getting massacred and their inability to have any kind of 
counter-response or intelligence was clear.
    But I do not want to go through an exercise of pointing 
fingers. I think it is a good thing that we are now facing up 
to the problem. I do not think the issue, Mr. Chairman, is so 
much whether $500 million is enough or too much but whether we 
develop a long-term strategy and a long-term commitment, 
because we have a very bad habit of getting very focused on a 
problem like drugs in Colombia and throwing a lot of money at 
it for a year or two and then we get impatient or diverted or 
the politics change and we go somewhere else.
    These problems have been growing for 40 years in this 
country. They are now spilling over into our country in a 
serious way and into Latin America in a serious way and I think 
we need to join with the administration in a long-term program 
to help this country in all its aspects, including its armed 
forces, and that needs to be a multi-year commitment.
    I have not looked at the numbers to say whether $500 
million. I think another key issue is how the money is spent. I 
think, like a lot of Latin American armies, the Colombian army 
was organized and trained in a very traditional way as a 
standing army to face a threat across its borders, which it has 
not faced and will not face. It has to be totally retrained and 
reorganized into small units and rapid reaction and close air 
support and a lot of things that it does not know how to do 
right now.
    This issue Senator Graham mentioned about high school 
graduates being exempted from combat could not send a worse 
signal about who fights this war. You have peasants fighting 
peasants and poor people fighting poor people, and the 
Colombian nation as a whole has to take responsibility. The 
sons and daughters of the elite do not serve in the armed 
forces and they need to.
    So I think there is a thorough strategic, kind of overall 
has to be made and it has to be multi-year. I have not looked 
at the numbers enough to give you an informed answer about the 
$500 million. I assume that that is a multi-year request, but 
the main message I would leave, Senator, is that this has to be 
a long-term commitment.
    Chairman Grassley. Mr. Shifter, is negotiations with the 
insurgent groups a serious possibility or do you think that 
this might be a stall tactic by the insurgent groups to gain 
more support and particularly more funding?
    Mr. Shifter. I think that, clearly, the record over the 
last year has not been--those who thought that the FARC was 
interested in negotiating have not been very encouraged by 
their behavior and conduct over the last year. I think what is 
essential to do is to begin to change their calculations so 
that they do go to negotiate seriously. I think, ultimately, 
they will, but they have been in a position of great strength, 
the government has been in a weak position, and we have to 
reverse that.
    I think to reverse that requires attention on all fronts, 
including the military front, but just making the government 
stronger in every respect. That, I think, will change their 
calculations. They are pragmatic. They have interests. They 
want to defend their interests. They want to see a change in 
the country. And I think, ultimately, once that dynamic is 
changed, I think there is evidence that they will go to the 
bargaining table and settle politically.
    Chairman Grassley. Is military force going to be necessary 
against the insurgents from an outside force?
    Mr. Shifter. You mean outside----
    Chairman Grassley. Yes.
    Mr. Shifter. No. I think this is a Colombian 
responsibility. I think outside support can be helpful, but I 
think this is not--an outside force is not necessary and I 
would not--I think it could really have very negative 
implications.
    Chairman Grassley. In the past, the Colombian government 
had been successful in negotiating with the M-19s and other 
smaller insurgent groups. How has that dynamic changed now that 
the insurgents are involved with drug trafficking?
    Mr. Shifter. Well, that has been the major change over the 
last decade or so of the military and the financial strength of 
the insurgents. So that clearly makes it that much more 
difficult, I think, to reach a settlement than with the M-19, 
when the M-19 was a small group, did not have the kind of 
resources or military might. So it was easier to incorporate 
them into the political system. This is going to be much more 
difficult. It is going to take a longer period of time because 
they are a more formidable force in many respects.
    That is why it is essential, I think, for the State and for 
the government to regain the authority and capacity and their 
own resources and their own effectiveness, and that will, I 
think, change the balance. I think it will createthe conditions 
for a productive negotiation.
    Chairman Grassley. Thank you.
    Senator DeWine.
    Senator DeWine. I want to thank both of you for your 
testimony. I think it has been very, very helpful.
    Mr. Aronson, you talked about the weakness of the 
institutions in Colombia. You have also talked about the 
problems with the economy. Can you, based on your experience, 
compare and contrast what we are seeing in Colombia versus what 
you saw in El Salvador and Nicaragua? At first blush, it would 
seem that, while there are some similarities, the economy is 
certainly fundamentally different. Nicaragua is still the 
second-poorest country in the hemisphere. El Salvador is not 
certainly a rich country. Per capita income is not that high. 
The social injustices, maybe we are just more aware of them 
historically in Nicaragua and El Salvador, going back many, 
many years.
    Compare the situation in Colombia today versus El Salvador 
and Nicaragua. Compare and contrast. What is similar, what is 
dissimilar, what are the lessons that we should take from our 
experience and your experience in Nicaragua and El Salvador.
    Mr. Aronson. I think it is a good question, Senator. Let me 
just try to go through the differences and similarities and 
maybe some lessons learned.
    As far as the differences, as you point out, Colombia is a 
large, modern country for Latin America when Nicaragua and El 
Salvador are not and were not at the time of these 
insurgencies. In terms of geography, Colombia is almost as 
large as France, Germany, and Italy combined. The space that 
President Pastrana agreed to allow the FARC to operate in is 
twice as large as El Salvador and the country itself is 20 
times larger. There are 40 million Colombians. There are about 
5.5 million Salvadorans, 3.5 million Nicaraguans.
    Secondly, Colombia has been a democracy for a long time and 
neither Salvador nor Nicaragua were democracies when these 
insurgencies grew up. So I think there was more legitimacy in 
the early origins of these guerilla movements, even though they 
became Marxist-Leninists and threatened democracy itself.
    Third, as General Wilhelm and others pointed out, the 
Sandanistas and the FMLN both relied significantly on outside 
support, ideologically, politically, militarily, economically. 
The FMLN got its weapons from the Vietnamese, from the North 
Koreans, and others, through the Soviets--so did the 
Sandanistas--and from Latin Americans, as well.
    The FARC and the ELN, and it is one of the reasons they are 
so tough to deal with, basically have a home-grown industry, 
huge financial resources. They can buy very sophisticated 
weaponry. They are not dependent on any outside government, any 
outside movement, and they are very isolated. They had original 
origins as pro-Soviet, pro-Cuban groups, but they are very 
autonomous.
    Third, they operate, particularly the FARC, in a part of 
Colombia that has sort of been isolated from the central 
government and the state it is a relatively--Colombia is really 
a country of strong regions and the central government has sort 
of grown in strength, but the FARC operates in a region where 
the government just does not exist and they are a kind of a 
state within a state. They have been there for a long time, and 
for better or for worse, they are the law and order and 
governmental structure.
    But I think that there are some important similarities, 
particularly with regard to El Salvador, that I would like to 
stress. When we started out in El Salvador, this was part of 
the East/West struggle. The guerrillas were our enemy. They 
were the enemy of democracy. We threw a lot of resources and 
training and efforts into defeating them militarily and they 
were very hard-core Marxist-Leninists. They were not looking 
for reform or democratic space. They wanted to take power.
    But because we were able to create a stalemate militarily, 
because we pressed very hard for changes within the government 
and the army that were needed in terms of reforms nad human 
rights, because the world changed and the Soviet Union 
collapsed, there came a time when the guerrillas also changed 
in fundamental ways. They became willing to embrace an agenda 
of reform that was within a democratic system and give up their 
original goal of taking power through arms.
    I think we need to try to create the forces and mechanisms 
to make that happen in Colombia. That is my one quarrel and 
concern with the notion that we can just defeat the FARC. It 
sounds good and we will all charge up the battlefield, but we 
will be back here in ten years and the FARC will not be 
defeated, even if we do everything that General Wilhelm wants. 
They have been there for a long time. I am not saying that we 
need to help the Colombians take them on and make them 
understand they are not going to win militarily. I believe that 
strongly. But the goal ought to be to force them to the 
negotiating table.
    One of the things I think we learned from El Salvador is we 
need a huge international effort to do that. It helped that the 
FMLN were talking to the Mexicans and talking to other Latins 
who were pushing them and prodding them. It helped that we 
talked to them, and I understand it was difficult. I got 
President Bush to agree to let us talk to the FMLN and the next 
day, they shot down a U.S. helicopter and executed two American 
servicemen in cold blood. Jim Baker turned to me and said, your 
friends have a great sense of timing.
    It is not popular to do those things, but those early 
contacts made a difference and we built relations with the 
groups that were most susceptible to negotiations. I think it 
was a mistake when the State Department went and talked to the 
FARC that some members of the other body accused them of being 
soft on narco-guerrillas. It sounds good, but you need to start 
building ties to these people and bring them out of the cold, 
and so does the rest of the world.
    The U.N. needs to be in there, and I know President 
Pastrana talked to the Secretary General about that, the OAS, 
other Latin American countries, while we do all the other 
things we are talking about--help the country economically, 
modernize their armed forces, and slowly bring these guerrillas 
out of the isolation in which they live.
    Not all of their demands are illegitimate, and it also is 
important to understand one piece of history. Between 1982 and 
1986, there was a peace process involving the FARC, involving 
the Bettencourt government, and the FARC formed a political 
party called the Patriotic Union and 1,000 of its members who 
came out of the war when there was a cease fire were massacred 
and shot to death by the paramilitaries and other forces. So 
they have a long memory, and so when wesay, let us talk peace, 
they remember the last time they tried to talk peace. It was not a very 
good ending.
    We are going to have to provide security guarantees and do 
something about the human rights situation as we take them on 
in the battlefield, and that is going to take time. I think 
Mike is right. The time will come when they will negotiate 
seriously and we need to be there saying the door is open to 
peaceful negotiations.
    Senator DeWine. Just a quick follow-up question. I 
appreciate your answer. You talk about the weak institutions in 
Colombia. What institutions are you talking about? Are you 
talking about geographically in the region where the guerrillas 
operate?
    Mr. Aronson. Right.
    Senator DeWine. What else? Are we talking about the 
judicial system? Are we talking about what?
    Mr. Aronson. Well, I am talking first about the armed 
forces, which do not know how to do counter-insurgency and 
which high school students do not go into combat and all the 
things. They do not have all kinds of abilities they need, 
small operations, close air support, mobility, intelligence.
    The judicial system, absolutely. Three percent of the 
people in this country who are indicted are convicted. There is 
a lot of corruption. That system needs to be changed.
    There is no economic infrastructure in a lot of these 
guerilla territories, so when we are trying to say, do 
something besides plant coca leaves and poppies, well, there 
need to be roads and bridges and transport so farmers can take 
other kinds of crops out. There needs to be a governmental 
infrastructure in these countries that will take the place of 
the guerrillas or change sort of the nature of institutions on 
the ground.
    There needs to be protection for journalists in this 
country, who are being murdered now just because they support 
negotiations. There need to be protections for human rights 
workers. Probably, I think, more work needs to be done in 
cleaning up the corruption in the congress of this country. The 
traffickers still have a lot of influence, and supporting the 
Colombians who are clean and honest.
    So there is a kind of a long-term systemic process. But the 
institutions I would emphasize are the judiciary and the armed 
forces and the police.
    Senator DeWine. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Grassley. I have no further questions as chairman 
of the caucus and from my staff. You both have cooperated with 
us not only during this hour or so that you have been here but 
also in the planning. We thank you very much.
    The caucus is adjourned.
    Mr. Aronson. Thank you.
    Mr. Shifter. Thank you, Mr. Chairman.
    [Whereupon, at 11:41 a.m., the caucus was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0923.057
    
    [GRAPHIC] [TIFF OMITTED] T0923.058
    
    [GRAPHIC] [TIFF OMITTED] T0923.059
    
    [GRAPHIC] [TIFF OMITTED] T0923.060
    
    [GRAPHIC] [TIFF OMITTED] T0923.061
    
    [GRAPHIC] [TIFF OMITTED] T0923.062
    
    [GRAPHIC] [TIFF OMITTED] T0923.063
    
    [GRAPHIC] [TIFF OMITTED] T0923.064
    
    [GRAPHIC] [TIFF OMITTED] T0923.065
    
    [GRAPHIC] [TIFF OMITTED] T0923.066
    
    [GRAPHIC] [TIFF OMITTED] T0923.067
    
    [GRAPHIC] [TIFF OMITTED] T0923.068
    
    [GRAPHIC] [TIFF OMITTED] T0923.069
    
    [GRAPHIC] [TIFF OMITTED] T0923.070
    
    [GRAPHIC] [TIFF OMITTED] T0923.071
    
    [GRAPHIC] [TIFF OMITTED] T0923.072
    
    [GRAPHIC] [TIFF OMITTED] T0923.073
    
    [GRAPHIC] [TIFF OMITTED] T0923.074
    
    [GRAPHIC] [TIFF OMITTED] T0923.075
    
    [GRAPHIC] [TIFF OMITTED] T0923.076
    
    [GRAPHIC] [TIFF OMITTED] T0923.077
    
    [GRAPHIC] [TIFF OMITTED] T0923.078
    
    [GRAPHIC] [TIFF OMITTED] T0923.079
    
    [GRAPHIC] [TIFF OMITTED] T0923.080
    
    [GRAPHIC] [TIFF OMITTED] T0923.081
    
    [GRAPHIC] [TIFF OMITTED] T0923.082
    
    [GRAPHIC] [TIFF OMITTED] T0923.083
    
    [GRAPHIC] [TIFF OMITTED] T0923.084
    
    [GRAPHIC] [TIFF OMITTED] T0923.085
    
    [GRAPHIC] [TIFF OMITTED] T0923.086
    
    [GRAPHIC] [TIFF OMITTED] T0923.087
    
    [GRAPHIC] [TIFF OMITTED] T0923.088
    
    [GRAPHIC] [TIFF OMITTED] T0923.089
    
    [GRAPHIC] [TIFF OMITTED] T0923.090
    
    [GRAPHIC] [TIFF OMITTED] T0923.091
    
    [GRAPHIC] [TIFF OMITTED] T0923.092
    
    [GRAPHIC] [TIFF OMITTED] T0923.093
    
    [GRAPHIC] [TIFF OMITTED] T0923.094
    
    [GRAPHIC] [TIFF OMITTED] T0923.095
    
    [GRAPHIC] [TIFF OMITTED] T0923.096
    
    [GRAPHIC] [TIFF OMITTED] T0923.097
    
    [GRAPHIC] [TIFF OMITTED] T0923.098
    
    [GRAPHIC] [TIFF OMITTED] T0923.099
    
    [GRAPHIC] [TIFF OMITTED] T0923.100
    
    [GRAPHIC] [TIFF OMITTED] T0923.101
    
    [GRAPHIC] [TIFF OMITTED] T0923.102
    
    [GRAPHIC] [TIFF OMITTED] T0923.103
    
    [GRAPHIC] [TIFF OMITTED] T0923.104
    
    [GRAPHIC] [TIFF OMITTED] T0923.105
    
    [GRAPHIC] [TIFF OMITTED] T0923.106
    
    [GRAPHIC] [TIFF OMITTED] T0923.107
    
    [GRAPHIC] [TIFF OMITTED] T0923.108
    
    [GRAPHIC] [TIFF OMITTED] T0923.109
    
    [GRAPHIC] [TIFF OMITTED] T0923.110
    
    [GRAPHIC] [TIFF OMITTED] T0923.111
    
    [GRAPHIC] [TIFF OMITTED] T0923.112
    
    [GRAPHIC] [TIFF OMITTED] T0923.113
    
    [GRAPHIC] [TIFF OMITTED] T0923.114
    
    [GRAPHIC] [TIFF OMITTED] T0923.115
    
    [GRAPHIC] [TIFF OMITTED] T0923.116
    
    [GRAPHIC] [TIFF OMITTED] T0923.117
    
    [GRAPHIC] [TIFF OMITTED] T0923.118
    
    [GRAPHIC] [TIFF OMITTED] T0923.119
    
    [GRAPHIC] [TIFF OMITTED] T0923.120
    
    [GRAPHIC] [TIFF OMITTED] T0923.121
    
    [GRAPHIC] [TIFF OMITTED] T0923.122
    
    [GRAPHIC] [TIFF OMITTED] T0923.123
    
    [GRAPHIC] [TIFF OMITTED] T0923.124
    
    [GRAPHIC] [TIFF OMITTED] T0923.125
    
    [GRAPHIC] [TIFF OMITTED] T0923.126
    
    [GRAPHIC] [TIFF OMITTED] T0923.127
    
    [GRAPHIC] [TIFF OMITTED] T0923.128
    
    [GRAPHIC] [TIFF OMITTED] T0923.129
    
    [GRAPHIC] [TIFF OMITTED] T0923.130
    
    [GRAPHIC] [TIFF OMITTED] T0923.131
    
    [GRAPHIC] [TIFF OMITTED] T0923.132
    
    [GRAPHIC] [TIFF OMITTED] T0923.133
    
    [GRAPHIC] [TIFF OMITTED] T0923.134
    
    [GRAPHIC] [TIFF OMITTED] T0923.135
    
    [GRAPHIC] [TIFF OMITTED] T0923.136
    
    [GRAPHIC] [TIFF OMITTED] T0923.137
    
    [GRAPHIC] [TIFF OMITTED] T0923.138
    
    [GRAPHIC] [TIFF OMITTED] T0923.139
    
    [GRAPHIC] [TIFF OMITTED] T0923.140
    
    [GRAPHIC] [TIFF OMITTED] T0923.141
    

</pre></body></html>
